<html>
<title> - WESTERN SHOSHONE CLAIMS DISTRIBUTION ACT</title>
<body><pre>[Senate Hearing 107-763]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 107-763

                WESTERN SHOSHONE CLAIMS DISTRIBUTION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                 S. 958

  TO PROVIDE FOR THE USE AND DISTRIBUTION OF THE FUNDS AWARDED TO THE 
               WESTERN SHOSHONE IDENTIFIABLE GROUP UNDER 
    INDIAN CLAIMS COMMISSION DOCKET NUMBERS 326-A-1, 326-A-3, 326-K

                               ----------                              

                             AUGUST 2, 2002
                             WASHINGTON, DC

                WESTERN SHOSHONE CLAIMS DISTRIBUTION ACT

82-885             U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



                                                        S. Hrg. 107-763

                WESTERN SHOSHONE CLAIMS DISTRIBUTION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                 S. 958

  TO PROVIDE FOR THE USE AND DISTRIBUTION OF THE FUNDS AWARDED TO THE 
               WESTERN SHOSHONE IDENTIFIABLE GROUP UNDER
    INDIAN CLAIMS COMMISSION DOCKET NUMBERS 326-A-1, 326-A-3, 326-K

                               __________

                             AUGUST 2, 2002
                             WASHINGTON, DC



                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman

            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

KENT CONRAD, North Dakota            FRANK MURKOWSKI, Alaska
HARRY REID, Nevada                   JOHN McCAIN, Arizona,
DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
PAUL WELLSTONE, Minnesota            CRAIG THOMAS, Wyoming
BYRON L. DORGAN, North Dakota        ORRIN G. HATCH, Utah
TIM JOHNSON, South Dakota            JAMES M. INHOFE, Oklahoma
MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel

         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 958, text of..................................................     2
Statements:
    Ike, Felix, chairman, Te-Moak Tribe Council Elko, NV.........    18
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, chairman, 
      Committee on Indian Affairs................................     1
    Johnny, Willie, chairman, Wells Indian Colony Band Council, 
      Wells, NV..................................................    20
    McCaleb, Neal, assistant secretary, BIA, Department of the 
      Interior...................................................    13
    Reid, Hon. Harry, U.S. Senator from Nevada...................    12
    Stewart, Nancy, on behlf of the Western Shoshone Claims 
      Distribution Steering Committee, Fallon, NV................    21
    West, Daisy, BIA Branch of Tribal Government Services........    15

                                Appendix

Prepared statements:
    Abe, Jody A., member, Te-Moak Tribe of Western Shoshone (with 
      attachment)................................................    86
    Bill, Larson, chairman, South Fork Band Council, South Fork 
      Indian Reservation (with attachments)......................    89
    Birchum Jr., Calvin C., member, Walker River Tribe, Schurz, 
      NV.........................................................   104
    Bobb, Bonnie Eberhardt, director, Office of Environmental 
      Protection for Yomba Shoshone Tribe........................    28
    Charles, Winona, chairperson, Western Shoshone Claims 
      Committee of Duck Valley Owyhee, NV........................    29
    Dann, Carrie, on behalf of the Dann Band of Western Shoshone 
      Indians....................................................   108
    Darrough, Ken................................................   118
    Durham, Paul M., attorney, Western Shoshone..................   123
    George, April T..............................................    30
    Green, Larry.................................................    30
    Hooper, Glenn (with attachments).............................   132
    Iverson, Nevada, member, Fallon Shoshone Claims Distribution 
      Committee (with attachments)...............................   140
    Ike, Felix (with attachments)................................    33
    Johnny, Willie (with attachments)............................    40
    Knight, Stanford, chairman, Battle Mountain Band (with 
      attachments)...............................................   161
    Manning, Larry M., descendant, Western Shoshone (with 
      attachments)...............................................   186
    McCaleb, Neal................................................    27
    McCloud, Mary (with attachments).............................   210
    Millett, Jerry, vice chairman, Duckwater Shoshone Tribe (with 
      attachments)...............................................   219
    Patterson, Marjorie, Western Shoshone of the Timbisha Band...   233
    Piffero, Larry, cochairman, Western Shoshone Claims Committee 
      (with attachments).........................................   236
    Piffero, Lita (with attachments).............................   242
    Prior, Kyle, vice chairman, Western Shoshone Claims 
      Committee, Duck Valley, Owyhee, NV (with attachments)......   247
    Robison, Betty, tribal member, Duckwater Shoshone Tribe (with 
      attachments)...............................................   254
    Stevens, Fermina, chairperson, Elko Band Council, Elko, NV...   274
    Stewart, Nancy (with attachments)............................    69
    St. Clair, John, enrolled member, Eastern Shoshone Tribe, 
      Wind River Indian Reservation..............................    31
    Walker River Paiute Tribe....................................   277
    Yowell, Raymond D., chief, Western Shoshone National Council 
      (with attachments).........................................   282
Additional material submitted for the record:
    Comments, Letters, Resolutions...............................   323
    Constructive Conquest in the Courts, a legal history of the 
      Western Shoshone Lands Struggle, John D. O'Connell.........   523
    Western Shoshone Nation Land Rights Issue Summary, Thomas E. 
      Luebben....................................................   601
    Draft Legislative Proposal, Yomba Shoshone Indian Land 
      Restoration Act............................................   606
    Yomba Shoshone Indian Land Restoration Act, Legislative 
      Justification..............................................   631
    Yomba Shoshone Indian Land Restoration Act, Appendices To 
      Legislative Justification..................................   680

 
                WESTERN SHOSHONE CLAIMS DISTRIBUTION ACT

                              ----------                              


                         FRIDAY, AUGUST 2, 2002


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:05 p.m. in room 
106, Senate Dirksen Building, Hon. Daniel K. Inouye (chairman 
of the committee) presiding.
    Present: Senators Inouye and Reid.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. The first order of business is to close 
yesterday's hearing on Native American youth. Now, that hearing 
is adjourned.
    This afternoon the committee meets to receive testimony on 
S. 958, the Western Shoshone Claims Distribution Act.
    There is a long history of events that provides the 
background and text for the measure that is before us today. 
Judging from the volume of mail that the committee has received 
on this matter, I presume there is some controversy.
    There are many who have called upon the committee for an 
opportunity to provide their views to the committee on this 
measure and so as chairman of the committee, in order to make 
certain that all interested persons would be properly 
accommodated, the hearing record will be kept open until the 
Senate returns to duty in September.
    I can assure one and all that your written statements will 
be read very carefully and studied by me and your written 
testimony will be a part of the hearing record and therefore 
form a part of the legislative history of this act.
    [Text of S. 958 follows:]
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Senator Reid.

     STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM NEVADA

    Senator Reid. You're absolutely right, this has been an 
issue going on for some time. The hearing is on a bill to 
provide for the use and distribution of funds awarded to the 
Western Shoshone under Indian Claims Commission Docket numbers 
such and such, a long list of numbers.
    We have had two separate elections to determine how the 
eligible Native Americans wanted the money distributed and on 
both occasions, far over 90 percent voted to have the money 
distributed.
    I want to make sure everyone understands that I believe and 
I think most would agree if there's other issues that any of 
the Shoshones in Nevada feel they have been aggrieved and need 
some realignment of their boundaries of the land they are on or 
anything like that, legislatively I know this committee would 
be happy to take a look at that.
    I have some significant concern that we have thousands of 
Native Americans in Nevada that feel this money should be 
distributed. The money is now about $135 million, a lot of 
money. There are some who feel, and I certainly cannot 
criticize how they feel. They have a right in this country we 
live in to feel they have been aggrieved, that there should 
have been things done in the past.
    The problem we have is that there are courts of competent 
jurisdiction, have listed these claims, and made certain 
determinations and made certain determinations. That's why we 
have this money to distribute to somebody sometime. I think it 
should be now rather than later.
    I reaffirm that if there are situations where we can help 
this committee, I would be happy along with any other 
committees of competent jurisdiction in the Senate to take a 
look at this and listen to the grievances they have but I don't 
think that should stand in the way of these people who 
determined they want their money to get their money. Then we 
can go on and look at whatever land problems they have which 
some say have already been adjudicated in courts of competent 
jurisdiction.
    If there is legal authority or equity that determines that 
isn't the case, knowing you and what this committee does, and I 
certainly would weigh in any way I could, to see what help I 
could be.
    The Chairman. Thank you very much, sir.
    Our first witness is supposed to be the Assistant Secretary 
for Indian Affairs, Neal McCaleb. Is he here? If not, may I 
call upon the second panel: the chairman of the Te-Moak Tribal 
Council of Elko, NV, Felix Ike; the chairman of the Wells 
Indian Colony Band Council of Wells, NV, Willie Johnny; and the 
Western Shoshone Claims Distribution Steering Committee member, 
Nancy Stewart.
    Mr. Secretary, you're just in time, sir. As always, you are 
welcome to our committee, sir. Secretary McCaleb.

 STATEMENT OF NEAL A. McCALEB, ASSISTANT SECRETARY FOR INDIAN 
              AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. McCaleb. My apologies, Mr. Chairman. Not unlike the 
rest of the story of my life, I was at the wrong place at the 
at the right time.
    I'm privileged to be able to address you this afternoon on 
the Department's views of S. 958, a bill entitled the Western 
Shoshone Claims Distribution Act. The distribution of Western 
Shoshone judgment funds is a longstanding issue that needs to 
be settled. The judgment funds stem from two claims that were 
filed by the Te-Moak Tribe and Bands of Western Shoshone in the 
Indian Claims Commission in 1951. One is an aboriginal land 
claim that was concluded in 1979 in Docket No. 326-K for $26.1 
million. The other is an accounting claim. Several issues in 
the accounting claim were handled separately and resulted in 
two awards. The first award in the accounting claim was for 
$823,000 and Congress appropriated funds to pay that claim in 
1992. The second award was for $29,000 and the funds were 
appropriated in 1995 to pay the claim. The accounting claims 
were in Docket Nos. 326-A-1 and 326-A-3.
    Since 1980, numerous attempts have been made to reach 
agreement on the disposition of the Western Shoshone judgment 
funds. The most recent attempt in March 1998, was with the 
Western Shoshone Steering Committee, composed of individuals 
that are tribal members at various reservations in Nevada.
    With the approval of the Te-Moak Tribal Council, the 
Western Shoshone Steering Committee has worked over the past 4 
years investigating if the Western Shoshone people were in 
favor of a judgment fund distribution.
    In 1980, the BIA held its first hearing of record on the 
distribution of land claims judgment funds. A large segment of 
the Western Shoshone people have indicated they are in favor of 
the judgment fund distribution. In the meantime, it is 
important to note that the tribal councils of the four 
successor Western Shoshone tribes, the Te-Moak, Ely, Duckwater, 
and Yomba have mostly opposed the distribution of the judgment 
funds because they wanted the Western Shoshone aboriginal lands 
returned.
    Although the tribal governments were unanimous in their 
opposition in the early 1990's, since 1997 three of the four 
tribal councils have modified their position to support the 
distribution of the judgment funds. The Te-moak Tribal Council 
enacted Resolution 97-TM-10 on March 6, 1997 adopting a plan 
for the distribution of these funds and requested the 
Department to support it. That resolution was rescinded by the 
next tribal council in the summer of 2000. The current tribal 
council rescinded that action in January of this year and 
reinstated the 1997 resolution.
    The Duckwater Shoshone Tribal Council enacted Resolution 
No. 98-D-12 on March 18, 1998, supporting the Western Shoshone 
claims distribution proposal. On March 10, 1999, they enacted 
Resolution No. 99-D-07 reaffirming the earlier resolution 
supporting the Western Shoshone claims distribution proposal.
    The Ely Tribal Council enacted Resolution No. 2001-EST-44 
on October 9, 2001 supporting S. 958 and H.R. 2851.
    We have been advised that the Yomba Tribal Council 
continues to oppose the distribution. Several other tribes with 
enrolled tribal members that would be eligible to share in the 
judgment fund distribution under S. 958 have also enacted 
resolutions supporting the distribution. These tribes are: Duck 
Valley, Fallon, and Fort McDermitt. The Shoshone-Paiute Tribal 
Business Council of Duck Valley withdrew its support of S. 958 
by Resolution No. 2002-SPR-012, dated November 13, 2001. 
However, the Western Shoshones of Duck Valley continue to 
support the bill.
    We support the enactment of S. 958 because we believe it 
reflects the wishes of the vast majority of the Western 
Shoshone people. We also are pleased that three of the four 
successor tribes have expressed their support of the 
distribution as well as two other tribes with a significant 
number of tribal members of Western Shoshone descent.
    Section 2 of S. 958 proposes to distribute the Western 
Shoshone land claim funds that were awarded in Docket No. 326-
K, 100 percent per capita to approximately 6,500 individuals 
who have at least one-quarter degree of Western Shoshone blood.
    The current balance of this fund including interest is 
$137,286,774. This section appears to be in accordance with the 
wishes of the Western Shoshone people.
    Section 3 proposes to use the principal portion of the 
Western Shoshone accounting claims for non-expendable trust 
funds. The interest and investment income would be available 
for educational grants and other forms of educational 
assistance to the individual Western Shoshone members that are 
enrolled under section 2 of this act and their lineal 
descendants.
    The principal fund totals $754,136. The interest fund 
totals $591,845. This section appears to be in accord with the 
wishes of the Western Shoshone people also.
    We understand that many of the beneficiaries of this treaty 
continue to believe their rights under the treaty of the Ruby 
Valley in this subsection acts as a savings clause for whatever 
rights remain in effect. We are concerned that some tribes or 
individuals may believe that Article 5 of the treaty land 
provisions remain in effect.
    To be safe, the clause should read:

    Receipt of a share of the funds under this subsection shall 
not alter any treaty rights or the final decisions of the 
Federal courts regarding those rights pursuant to the 1863 
Treaty of Ruby Valley.

    Senator Reid. Would you read that again, please?
    Mr. McCaleb. To be safe, the clause should read, ``receipt 
of a share of the funds under this subsection shall not alter 
any treaty rights''--that's basically what it says right now 
and we add--``or the final decisions of the Federal courts 
regarding those rights''--that's what we've added, our final 
decisions by the court for clarity, that this in no way 
modifies the court decisions.
    Senator Reid. You're saying the language says that now but 
you think it should be clarified?
    Mr. McCaleb. No; I don't have the bill in front of me. It's 
my understanding the language does not make reference to the 
Federal courts decisions.
    Senator Reid. And you would add ``or the final decisions of 
the Federal courts''?
    Mr. McCaleb. Yes; right now it just says receipt of the 
funds under this subsection shall not alter any treaty rights 
and it doesn't, but the issue as it relates to the land, those 
treaty rights have been extinguished by the Federal court and 
the Supreme Court decision, in our judgment.
    This concludes my prepared statement. We are submitting a 
report to include in the record that gives the detailed history 
of the Western Shoshone claims. I will be happy to answer any 
questions.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. McCaleb appears in appendix.]
    The Chairman. By your response are you suggesting that 
article V of the Treaty of Ruby Valley is still in effect on 
the matter of the land?
    Mr. McCaleb. No; I'm hoping to make it clear that article V 
of the treaty is not in effect as it relates to the land.
    The Chairman. Does the Department believe from your 
response that the Western Shoshone people have a claim to lands 
under the treaty?
    Mr. McCaleb. No.
    The Chairman. Equitable claim?
    Mr. McCaleb. No.
    The Chairman. Mr. Secretary, as you have indicated, there 
is much controversy.
    Mr. McCaleb. Just 1 moment, Mr. Chairman. If I may, Mr. 
Chairman, this is Daisy West who is the resident expert on this 
subject.
    The Chairman. Will you identify yourself?

   STATEMENT OF DAISY WEST, BIA BRANCH OF TRIBAL GOVERNMENT 
                            SERVICES

    Ms. West. My name is Daisy West and I work in the Bureau of 
Indian Affairs Branch of Tribal Government Services.
    From the research that I have done on this, the Treaty of 
Ruby Valley is a treaty of peace and friendship, not a treaty 
that recognized aboriginal title or gave recognized title to 
land in Western Shoshone country. This is an issue that was 
addressed in a similar case in the 1930's with the Treaty of 
Box Elder which is one of the five Shoshone treaties that was 
negotiated by Commissioner Doughty back in 1863.
    That case was originally brought under a special 
jurisdiction act and, in that case, the Supreme Court held that 
those treaties were not treaties of recognition of land. Since 
they were not when they went to the Indian Claims Commission, 
they could only determine aboriginal title. So the title was 
never given under the Treaty of Ruby Valley.
    The Chairman. Do you agree with the Secretary's statement 
that the receipt of a share of the funds under this subsection 
shall not alter any treaty rights or the final decisions of the 
Federal courts regarding those rights pursuant to the 1863 
Treaty of Ruby Valley?
    Ms. West. I agree.
    The Chairman. Then you also agree with the statement of the 
Secretary that article V of the Treaty of Ruby Valley is not in 
effect?
    Ms. West. Right now I'm not sure what article V says. I 
don't have a copy of the treaty with me.
    The Chairman. It is on land.
    Ms. West. And it describes the boundaries. My understanding 
is that according to the case that was in Northwestern 
Shoshone, that describes the land that was claimed by the 
Shoshone, so I'm sure that since it wasn't a treaty of 
recognition, nothing would change that, that is what they 
claimed.
    The Chairman. Is it your position that the Treaty of Ruby 
Valley is still in force?
    Ms. West. I would say that it is still in force.
    The Chairman. Why don't you stay there and bring up the 
Secretary also.
    Mr. McCaleb. I think what I'm trying to convey is that 
there is an impression that the Treaty of Ruby Valley under 
Section V retains some legal claim to land rights. The vote 
that was held seems to indicate it reserves those rights. The 
point I'm trying to make is our opinion, the opinion of the 
Department, that no land rights still reside in the treaty as a 
result of the court decisions.
    The Chairman. You speak of the referenda. I presume that 
the Department of the Interior was involved?
    Mr. McCaleb. No; we were not.
    The Chairman. You did not supervise the referendum?
    Mr. McCaleb. That's correct.
    The Chairman. Were you notified of it?
    Ms. West. We were aware of it occurring. We were notified 
of the date that it would occur.
    The Chairman. You were notified after the conclusion of the 
referendum?
    Ms. West. We were notified first of the date it would be 
held which was June 3 and we were also notified of the results 
after the election count had been certified.
    The Chairman. When you were notified of the referendum, did 
you take steps to involve yourself?
    Ms. West. No; I'm not sure what that means.
    The Chairman. To monitor the referendum?
    Ms. West. No; no one attended from the Bureau of Indian 
Affairs [BIA] in their capacity as a Bureau official.
    The Chairman. Is that the usual practice?
    Ms. West. We considered this an internal Shoshone matter, 
one they had not requested our assistance for.
    The Chairman. You stated that the results of the referenda 
were certified. Who certified them?
    Ms. West. I'm thinking that it was the Western Shoshone 
Claims Committee.
    The Chairman. It's not certified by the Department?
    Ms. West. No.
    The Chairman. Mr. Secretary, do you have any views on the 
findings of the preliminary report of the Inter-American 
Commission?
    Mr. McCaleb. Yes; I do, relative to their observation that 
there has been a violation of the rights of the Dann family. 
The position of the United States, as well as the Department, 
is the Commission's report is in error for several reasons. No. 
1, the Danns' contentions regarding the alleged lack of due 
process in the Indian Claims Commission proceedings were fully 
and fairly litigated in the United States courts and should not 
be reconsidered here. No. 2, the Commission lacks jurisdiction 
to evaluate the process established under the 1946 Indian Land 
Claims Commission Act since the act predates the U.S. 
ratification of the OAS Charter. Three, the Commission erred in 
interpreting the principles of the American Declaration in 
light of article 18 of the not yet adopted OAS draft 
Declaration of Indigenous Rights.
    The Chairman. So you find the preliminary report to be in 
error?
    Mr. McCaleb. Correct.
    The Chairman. You do not concur with it?
    Mr. McCaleb. Yes, sir; that's correct.
    The Chairman. What is the history of negotiations of your 
department and the Western Shoshone with regard to the 
settlement of land rights? You have had negotiations?
    Mr. McCaleb. Yes; as early as 1980 and several times over 
the 22 years intervening, including 1984 negotiations in which 
we actually provided $240,000 to assist in the negotiations, 
provide staff, and facilitated negotiations on the 
distribution, and again in 1994 when Congress requested the 
Department of the Interior to reopen negotiations on the 
distribution. Along this process there have been numerous 
indications of popular support for the distribution of these 
funds on a per capita basis, the most recent being the election 
I made reference to earlier.
    The Chairman. But you have not reached a settlement yet?
    Mr. McCaleb. There are members of the Western Shoshone 
Tribe that do not think there should be a distribution of the 
funds, they feel that additional distribution of the funds will 
somehow adversely affect their land claims but according to the 
vote they are in a substantial minority.
    For your edification, I have the results of that vote if 
you are interested in it. There were three issues. The first 
was on the acceptance of the payment and the vote was 647 for, 
156 against. On the next issue, the limiting of the 
distribution to those members of the Western Shoshone Tribe who 
are a quarter or more blood quantum, 1,601 for, 1,906 against. 
On the third question, the use of the accounting funds for 
educational purposes, 1,024 for and 769 against.
    The Chairman. Thank you.
    Do you have any questions?
    Senator Reid. I have a couple.
    Daisy, tell me what your job is at the Bureau?
    Ms. West. My title is Tribal Relations Officer and I have 
several different functions. One is to prepare judgment fund 
distribution plans. In order to do that, I have to do 
historical research on the tribes and the claims and work with 
the tribes in developing the plan or, if necessary, in 
developing the draft legislation.
    Senator Reid. How long have you been with the Bureau?
    Ms. West. I've been with the Bureau since 1972.
    Senator Reid. What is your educational background?
    Ms. West. Most of my education in this area has occurred on 
the job. I graduated from high school and attended a number of 
classes that were preparing me for a future in accounting.
    Senator Reid. Thank you.
    Mr. Secretary, what I've heard you say is that if this 
money is distributed, whatever claims that exist, valid or 
invalid, would not be extinguished as a result of these moneys 
being distributed. Is that right?
    Mr. McCaleb. That's correct.
    Senator Reid. I have no further questions, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Secretary. If you 
wish to leave, you may be excused.
    Mr. McCaleb. Thank you. I appreciate that.
    The Chairman. Now may I call upon the Honorable Chairman 
Ike.

STATEMENT OF FELIX IKE, CHAIRMAN, TE-MOAK TRIBAL COUNCIL, ELKO, 
                               NV

    Mr. Ike. My name is Felix Ike. I am the chairman of the Te-
Moak Tribe of Western Shoshone Indians of Nevada. Te-Moak 
represents the four Te-Moak Band communities of Elko, Battle 
Mountain, South Fork, and Wells.
    The Western Shoshone Nation once occupied a large area of 
the western part of the United States, including parts of 
Nevada, Idaho, California, and Utah. Our traditional way of 
life was closely connected with nature. Our land was abundant 
in resources, including springs, streams, rivers, snow covered 
mountains, rich valleys, and even the desert areas which were 
full of plant and animal life.
    When the non-Indians came into our land, they depleted the 
natural resources, destroyed our way of life and forced us to 
adopt their ways. Of the vast territory that was once our 
homeland, only a few colonies, ranches and reservations have 
been set aside for our use. In the interest of future 
generations, we need to expand our land base to support our 
tribal population and provide a base from which we can develop 
greater self sufficiency. It is our understanding that this 
legislation will not prevent us from expanding our land bases 
in the future.
    The Western Shoshone always had a strong attachment to our 
land which encompassed many millions of acres as described in 
article V of the Treaty of Ruby Valley. Our people 
traditionally knew every valley and spring in our vast 
territory and our land has always been at the center of our 
cultural identity and way of life. Expanding our meager land 
base is essential for our health and vitality of our 
communities and for the survival of our culture.
    We ask Congress to consider the expansion of our land base 
to establish a permanent homeland for the Western Shoshone. 
Subsistence hunting, fishing, and gathering lives are of great 
importance to the Western Shoshone people. Our people hunt, 
fish and gather traditional food sources to supplement their 
diet. It is very important that the Western Shoshones continue 
to have access to traditional hunting, fishing and gathering 
areas and that we continue to be able to hunt, fish and gather 
traditional food sources which are part of our culture and our 
diet, a part of who we are.
    Many tribal members rely on these traditional food sources 
as a subsistence basis. Many traditional medicines are made 
from native plant sources gathered throughout our aboriginal 
territory and these are also important for our people for 
health, culture and religious reasons.
    Our aboriginal lands are being destroyed and poisoned by 
mining, toxic wastes and other forms of abuse. The native 
animals and plants are disappearing from lands that have 
suffered so much from these abuses.
    Shoshones are guardians of their environment. We 
traditionally practiced a way of life that was in harmony with 
the earth. It is part of our religion and the way of life to 
respect all forms of life--the land, the air, the water, the 
animals, the birds and plants are all interconnected and all 
depend upon each other for existence. We want our important 
hunting, fishing and gathering traditional areas to be set 
aside for us so that we can preserve them. In accepting the 
claims money, we are not giving up any hunting, fishing and 
gathering rights.
    Northeastern Nevada economy is in a period of decline with 
unemployment rising in and near the Te-Moak tribal communities. 
Economic development to increase our self sufficiency is very 
important to our communities but our opportunities are limited. 
Our need for federally funded services will continue in the 
areas of education, health, housing, community development, 
social services, judicial services, law enforcement, cultural 
resource, environmental protection, and other services 
necessary for a vibrant community.
    It is our understanding this legislation to compensate the 
Western Shoshone for pass wrongs will in no way diminish the 
U.S. Government's obligation to continue to provide all these 
services as needed for health and the well being of our people.
    In order to determine whether acceptance of this claim 
money is truly the wishes of the majority of the Western 
Shoshone people, another vote on the issue was held on June 3, 
2002. Tribal members voted on three questions: Whether or not 
to accept claims money from Docket 326-K; whether the tribal 
members of at least one-quarter degree Western Shoshone blood 
should be able to participate in the settlement; and whether or 
not 326-A-1 and 326-A-3 should be placed in an educational 
trust fund. The vote was 1,647 to 156 in favor of distribution; 
1,601 to 196 in favor of tribal members of at least one-quarter 
degree Western Shoshone blood participating; and 1,020 to 769 
in favor of the educational trust fund. The majority of Western 
Shoshone voters clearly support distribution as described in 
the Western Shoshone Claims Distribution Act.
    It is the mandate of the people that we move forward with 
this process. The people have waited long enough. It would be 
incumbent upon this committee and Congress to also make a 
decision whether up or down in regard to our issue.
    I am asking you to support the Western Shoshone Claims 
Distribution Act to distribute the claims awarded in Docket 
326-K, 326-A-1, and 326-A-3. The money was awarded so many 
years ago in attempt to compensate the people for some of the 
wrongs that have been done to us. The committee of our tribal 
members has passed away without benefiting from this money that 
was set aside for them. Although it cannot fully compensate us 
for the loss of our land and way of life, the claims money will 
help make life better for the tribal members who would receive 
a share.
    [Prepared statement of Mr. Ike appears in appendix.]
    The Chairman. Thank you very much, Chairman Ike.
    May I recognize Chairman Johnny.

STATEMENT OF WILLIE JOHNNY, CHAIRMAN, WELLS INDIAN COLONY BAND 
                       COUNCIL, WELLS, NV

    Mr. Johnny. I, Willie Johnny am chairman of the Wells Band 
Colony of the Western Shoshone Nation of Nevada.
    The Wells Band is one of four colonies that make up the Te-
Moak Shoshone Tribe. I am giving testimony on behalf of the 
Wells Band Colony and not for the Te-Moak Council. Te-Moak 
chairman, Felix Ike, does not represent the four bands. He is 
only the chairman of the Te-Moak Council and representative of 
the tribe by approval of the Te-Moak Council.
    The Wells Band Colony and surrounding areas have used this 
land we call home to be self supportive for centuries. Our 
people roamed all over the western portion of the United States 
which today we call Nevada, Idaho, Utah, and California. There 
were no boundaries, this was our way of life.
    The Treaty of Ruby Valley of 1863 allowed settlers and 
immigrants to migrate through our territory. Railways were 
built on the land and stage lines were operated through our 
boundaries, mines were built to take minerals, and mills were 
made to take our timber from mountains. The natural resources 
we had depended upon for centuries were drastically depleted 
and our way of life was forever changed. We hunted and fished 
to provide our people with food. We gathered wood for shelter 
and warmth and picked berries and herbs for medicine.
    Today, our people are deprived of the traditional ways of 
life. Today we are facing an epidemic called diabetes caused by 
diet we are not accustomed to. We no longer have the freedom or 
resources to be self supportive.
    I have read the Treaty of Ruby Valley and believe it only 
benefits the United States and the State of Nevada. As in the 
first four articles of the treaty that the Band allowed, at 
that time, the only thing that might have benefited our people 
then and now is a reservation which is nonexistent today.
    Referring back to the Treaty of Ruby Valley, article VI:

    The said Bands agree that whenever the President of the 
United States shall deem them to abandon the roaming life which 
they now lead and become herdsmen and agriculturists, he is 
hereby authorized to make such reservations for their use as he 
may deem necessary within the country above described. They 
also do hereby agree to remove their camps and such 
reservations as he may indicate and reside and remain therein.

    The colonies we live on today are by treaty, executive 
order or statutes and are too small and not enough land for our 
traditional ways or economic development. Today, there are 
other tribes around us that have reservations, that had 
treaties similar to ours. Through their negotiations they asked 
for extra land and have obtained reservations plus monetary 
settlements.
    We as Native Americans have been pushed aside for many 
years. Our tribal members have endured hardships, we obey, the 
laws and what was asked of us. We, the Western Shoshone did not 
break the Treaty of Ruby Valley, we did not cede land to the 
United States or the State of Nevada and if we did when?
    We believe this treaty is enforceable today. Our rights are 
still secured, ownership to this land by treaty, statutes and 
executive agreements.
    This is a brief summary of our proposal. No. 1, at the 
present time, we have 80 acres for the Wells Band Colony and 
only one-half of that acreage is used for housing and the other 
half according to environmental assessment is waste land.
    No. 2, we are asking for a $25-million settlement fund for 
the purpose of establishing economic development.
    No. 3, we are asking for a land expansion of a 60-mile 
radius of the Wells area.
    No. 4, we are asking for hunting, fishing and gathering 
rights.
    No. 5, to provide future generations with territorial base 
to call home, and
    No. 6, to increase our self sufficiency in taking care of 
our people.
    The Wells Band Colony is in support of the Western Shoshone 
Distribution Act, 326-K, 326-A-1 and 326-A-3 only if S. 958 is 
amended to include both land base expansion and monetary 
settlement.
    In closing, I would like to thank the Senators and 
committee members for the time and attention you have given me 
today in presenting my testimony and proposal to you. I hope we 
can come to a negotiation and better understanding which will 
benefit us all.
    Chairman Ike is our Te-Moak Chairman but we do have four 
other bands that make up Te-Moak. I feel the other three bands 
should give their testimonies today. To me it is different in 
language than seeing it on paper.
    [Prepared statement of Mr. Johnny appears in appendix.]
    The Chairman. Mr. Chairman, as I have indicated to the 
group here, the record will be kept open so that the chairmen 
and others if they wish may submit statements to become part of 
the committee record. I can assure you I will read every one of 
them.
    Ms. Stewart.

 STATEMENT OF NANCY STEWART ON BEHALF OF THE WESTERN SHOSHONE 
       CLAIMS DISTRIBUTION STEERING COMMITTEE, FALLON, NV

    Ms. Stewart. First of all, I am Nancy Stewart, cochairman 
of the Western Shoshone Steering Committee. Thank you for 
allowing us to appear here today. It has been a long time 
coming awaiting a hearing. This testimony is in support of S. 
958.
    Our committee speaks for the 1,647 Shoshones who voted 
``yes'' in favor of receiving their 1977 court award versus 156 
opposed. The vote reconfirmed the 1998 poll. These, the 
majority, are some of the faces we represent an enlarged 
picture. Approximately 65 percent of the eligible adults voted, 
65 percent. Of those voting, 91 percent favored distribution.
    The majority supports the bill and they support the 
direction of our committee. In two public meetings after a 
division of the house was called for, only 3 people stood 
against the bill and the direction of our committee. We held 
these two meetings both in Elko, Nevada, northern Nevada and 
mid-Nevada, which is in Fallon. In Fallon, nobody stood against 
the bill or against the direction of the committee.
    We do have one suggested amendment to the bill. It was a 
simple oversight. We would like to make our suggestions under 
the educational, section III. Under 2(A) we need to have the 
words added that say ``exclusively comprised of Western 
Shoshone'' after the words ``the administration committee.'' In 
other words, ``the administration committee should be 
exclusively comprised of Western Shoshone.''
    On 2(B), the words ``Western Shoshone'' were omitted and in 
section 2(B), under (v), we would like that to be revised that 
the other member of that committee should be ``the Western 
Shoshone Committee of the Duck Valley Indian Reservation.'' 
That's the committee that comprises all the educational 
members. Each tribal community gets one member on that 
committee. We would like to add those amendments.
    The 1973 Distribution Act provided that a tribe has 180 
days after appropriation to submit a plan. That was 22 years 
ago. The timeframe was not met under the 1973 Distribution Act. 
Therefore, the ``recognized spokesmen or representatives of any 
descendant group'' may submit a plan as their civil right, thus 
the birth of our steering committee.
    Following 25 years of failed tribal/Federal negotiations 
and the failure to produce a ``good faith plan'' the people 
realized there was a need to band together and take action. In 
1990 and 1992, the promised action by the councils and the 
WSNC, the Western Shoshone National Council, who was involved 
at that time, they promised to resolve an impasse on another 
bill before the House of Representatives' Resource Committee. 
It never came to fruition; 12 years later, nothing.
    Even a 1993--I believe Mr. Ike alluded to this--$1 million 
ANA grant was awarded to the land claimants and a 1994 meeting 
with the Secretary of the Interior, Bruce Babbitt, at the time, 
to solve the land issue problem failed. The tribal governments 
let the opportunity for concrete negotiations slip by due to 
ill advised political maneuvering.
    A small group calling themselves the Western Shoshone 
National Council has been involved in stopping distribution for 
years. Their lawyers operate quietly to influence councilmen. 
Decisions are then made without the knowledge or the support of 
the people such as the recent attempted land title amendment to 
S. 958. This targeting of elected chairmen promotes their 
clients' interests and acts to repress the voice of the people. 
One million dollars and an offer of several million acres by 
the Secretary of the Interior--again, nothing. Therefore, our 
committee feels that any land needs should be addressed through 
other available governmental procedures as other reservations 
have done.
    It took 15 years for the cattlemen's case to reach the U.S. 
Supreme Court in 1985. It was determined that the deposit of 
the award in trust for the Shoshones effectuated full 
settlement of all claims. This decision is not debatable, it's 
not debatable. It ended the claims to title in the court 
system. Yet, the litigants continued to tout ownership of two-
thirds of Nevada.
    Because of this, some cattlemen have not paid their BLM 
fees for years. Other Shoshone cattlemen on the South Fork 
Reservation that paid their BLM fees have had their cattle shot 
and have not been allowed to use tribal pastures. This is an 
article that appeared in the Elko daily news and I spoke 
personally to the person whose cattle were shot. This is what I 
was told.
    Telling the Shoshones they still own the land is a shameful 
deceit perpetuated by the minority. The people see the 
improbability of all of this, this all or nothing attitude 
versus State or Federal interests. Although I can agree with 
Mr. Johnny when he says there are some reservations that need 
land, but the attitude of two-thirds of the State of Nevada--
that is improbable and the Shoshone people see that.
    The minority's 1993 quest for support to the Organization 
of American States Commission on Human Rights, claiming 
discrimination and to avoid the impoundment of their livestock, 
has resulted in another report. A report to which we do not 
have access at this time, so we will not comment on it. The 
United States is not bound to international law that the 
Commission applies, especially given the years of due process 
this particular case received through this country's own court 
system.
    My testimony attempts to reveal the subtle factors that 
contributed to the peoples support of this bill, the good, the 
bad and the ugly. The majority view the award as good, an 
apology of substance. The 1946 act gave Indian people their day 
in court to air grievances suffered across the United States. 
The limitation was that no one should be allowed to litigate a 
claim forever. It was not the intent of Congress to leave 
claims hanging in limbo for over 51 years and that is what 
happened to our Shoshone people, 51 years.
    This claim is the last in Nevada and it is the last of the 
five Shoshone groups to be distributed. As for the Bad, the 
death of elders whose hopes and health needs were pushed aside. 
The problem is as we people have seen it--by the way, I am not 
a political person, I have never run for a political office so 
I can appreciate some of the pressures brought upon our tribal 
officials and others--but the problem is elected leaders who do 
not represent their own tribal members but the interests of 
others outside of their own tribe. We have seen that for years.
    The ugly, what should have been easy, the disbursement of 
this money, this court award to our Shoshone people--turned 
into back door politics to override the peoples choice by a few 
Shoshones and some non-Indians working for their organization's 
objectives.
    Their use of the Western Shoshone name in newspapers as 
though they represent the majority is misleading and a lot of 
people have said it is a sham. The majority of Western Shoshone 
people do not like that.
    In conclusion, every day Senators are called upon to make 
decisions; 100 percent agreement is a rarity. The people have 
been told there may be changes in S. 958 in markup, a chance we 
have to take. The majority which our committee represents 
respectfully requests that the committee act decisively in 
expediting S. 958 in the interest of the long sought closure 
our people deserve.
    Thank you.
    [Prepared statement of Ms. Stewart appears in appendix.]
    The Chairman. Thank you, Ms. Stewart.
    Senator Reid, would you like to proceed with questioning?
    Senator Reid. I really don't have questions. I believe that 
the record is very clear that everyone believes the rights, 
whether they are valid or invalid, are not changed as a result 
of distributing the money. That is what I have heard here 
today.
    I understand Willie Johnny, you only have 80 acres in 
Wells. My math may not be absolutely right but he wants 1.5 
million acres. To me at first glance, that sounds like a lot of 
land but a long time ago, you had a lot more land than that. 
These are things we can take a look at but the money should be 
distributed as said by Chairman Ike and Ms. Stewart.
    It is clear that people are dying every week who should 
have had the benefit of this money after all this many years. I 
would hope we could move quickly and get these people their 
money and have this committee look at any other inequities that 
are in existence.
    The Chairman. Thank you.
    Chairman Ike, you indicated you favor the distribution of 
funds. However, you are very much concerned about a land base. 
May I ask a general question? I gather there are six tribes or 
bands in the Western Shoshone Nation?
    Mr. Ike. I'll answer the first question. You said I favor 
the distribution. I have my own opinions in regard to that, I'm 
only one person and I had one vote. What I'm representing here 
today are those individuals that voted on the issue and that's 
the message I bring here today. I'm voicing the majority of the 
Western Shoshones in favor of this distribution. That's my 
overall position.
    My overall position is also in regards to my testimony an 
expansion of Western Shoshone lands. I've asked for that.
    The Chairman. You indicated that the Congress should 
address this issue. How do you propose we do that?
    Mr. Ike. Through legislative action in regards to it. Each 
individual community has their own wants and needs in regards 
to this. I have a letter from the Duck Water Council. They have 
asked me to also be their spokesman and their representative 
here. Each individual community already has their plan in place 
for expansion of their reservations.
    The only thing I could ask is if they were to consider 
expansion of those reservations as requested by those 
communities.
    The Chairman. Chairman Ike, Ms. Stewart of the Western 
Shoshone Claims Distribution Steering Committee, is that part 
of the Shoshone Nation organization?
    Mr. Ike. That was created by council action by Te-Moak in 
1997 or 1996, previous to my administration. That was created 
because of the interest in regards to the inactivity at that 
particular time on the distribution act itself.
    Chairman Johnny, as Senator Reid indicated, you are very 
concerned about land base.
    Mr. Johnny. Yes; I am.
    The Chairman. You wish the Congress to address this?
    Mr. Johnny. Yes; I would. It's not in the bill, it's 
something we hope to get amended into the bill to have a land 
base.
    The Chairman. However, you are not opposed to the money 
distribution or are you?
    Mr. Johnny. I'm only opposed to it, like I said in my 
testimony, if it doesn't state land or money. It just states in 
here it's pretty much for the distribution. We feel land should 
be an issue in this bill.
    The Chairman. In other words, if land were made part of 
this, you would be in favor?
    Mr. Johnny. Yes.
    The Chairman. Ms. Stewart, who is the chairperson of your 
committee? Are you the chairperson?
    Ms. Stewart. I am a cochair. Our lead chairman, Larry 
Piffero, is in the hospital at this point, so I am speaking in 
his stead.
    The Chairman. Am I correct to assume that your membership 
is made up of representatives from all of the clans?
    Ms. Stewart. We have tribal community representatives on 
all reservations, yes, and committees. For example, on the 
reservation I come from in Fallon, we have about 20 committee 
members just in Fallon. Each of the other tribal communities 
has their own committee representatives. We come together under 
the umbrella of the steering committee.
    The Chairman. This goes back to ancient times when the 
State of Nevada was known as Ruby Valley and I can assure you 
that I will not only study this but I hope we can bring this to 
a resolution.
    It may interest you to know that this is a very busy and 
active committee. We have held as of this day, 49 hearings. 
This committee has held more hearings and passed more bills 
than any other committee in the United States Congress. So we 
are an action people.
    Ms. Stewart, the people in the back were shaking their 
heads when you said all members are represented somehow.
    Ms. Stewart. That is correct.
    Mr. Ike. I would like to reiterate that position. There was 
a draft letter that was drafted by the Assistant Secretary of 
the Bureau of Indian Affairs to Al Gore who was the Vice 
President of the United States and also the President of the 
Senate, a letter was drafted to him with the names of every one 
of those members in regards to that claims committee. I believe 
there are 32 members that were named in that committee. That 
research was done and that was submitted, so those names are 
part of the record that I have submitted.
    The Chairman. I'd like to thank all of you for having 
traveled long distances to be with us today. As I stated 
earlier, the record will be kept open until September 8. That 
is a Sunday. If you wish to amend your testimony or to add to 
it, or if there are others in the audience or at home who wish 
to send a statement, please feel free to do so.
    Senator Reid. This is very unusual to have on a Friday 
afternoon after 3 o'clock a hearing going on. We adjourned the 
Senate last night. Senator Inouye has a trip planned to go to 
Hawaii, he scheduled this hearing sometime ago recognizing we 
may even be in session today but this is the way he has chaired 
this Indian Affairs Committee since he took over. It's been a 
tremendous imposition to him to have this hearing. For me, it 
was fine, I'm not on the Senate floor today and it makes it 
very nice for me.
    I want you to know for all these people who traveled such a 
distance, how much they appreciate your scheduling this hearing 
and I personally appreciate it also.
    Ms. Stewart. Yes; thank you very much.
    The Chairman. I can assure you that it is no imposition. It 
is my responsibility and my obligation to the Native Americans 
of this land.
    With that, the hearing is in recess. The record will be 
kept open until September 8.
    [Whereupon, at 3:05 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Neal A. McCaleb, Assistant Secretary for Indian 
                  Affairs, Department of the Interior

    Good morning, Mr. Chairman and members of the committee. Thank you 
for the opportunity to present the views of the Department of the 
Interior on S. 958, a bill entitled ``The Western Shoshone Claims 
Distribution Act.'' The distribution of the Western Shoshone judgment 
funds is a long-standing issue that needs to be settled. The judgment 
funds stem from two claims that were filed by the Te-Moak Bands of 
Western Shoshone in the Indian Claims Commission in 1951. One is an 
aboriginal land claim that was concluded in 1979 in Docket 326-K for 
$26.1 million. The other is an accounting claim. Several issues in the 
accounting claim were handled separately and resulted in two awards. 
The first award in the accounting claim was for approximately $823,000, 
and Congress appropriated funds to pay the claim in 1992. The second 
award was for $29,000, and funds were appropriated in 1995 to pay the 
claim. The accounting claims were in Dockets 326-A-1 and 326-A-3.
    Since 1980, numerous attempts have been made to reach agreement on 
the disposition of the Western Shoshone judgment funds. The most recent 
attempt began in March 1998, the Western Shoshone Steering Committee 
[WSSC], which is composed of individuals that are tribal members at 
various reservations in Nevada. With the approval of the Te-Moak Tribal 
Council, the WSSC has worked over the past 4 years investigating if the 
Western Shoshone people were in favor of a judgment fund distribution.
    Since 1980, when the BIA held its first Hearing of Record on the 
distribution of the land claims judgment funds, a large segment of the 
Western Shoshone people have indicated that they are in favor of the 
judgment fund distribution. In the meantime, it's important to note 
that the tribal councils of the four successor Western Shoshone tribes 
[Te-Moak, Ely, Duckwater, and Yomba] have mostly opposed the 
distribution of the judgment funds because they wanted the Western 
Shoshone aboriginal lands returned. Although the tribal governments 
were unanimous in their opposition in the early 1990's, since 1997, 
three of the four tribal councils have modified their position to 
support the distribution of the judgment funds.
    The Te-Moak Tribal Council enacted Resolution No. 97-TM-10 on March 
6, 1997, adopting a plan for the distribution of these funds and 
requested the Department to support it. That resolution was rescinded 
by the next tribal council in the summer of 2000, but the current 
tribal council rescinded that action in January of this year and 
reinstated the 1997 resolution. The Duckwater Shoshone Tribal Council 
enacted Resolution No. 98-D-12 on March 18, 1998, supporting the 
Western Shoshone claims distribution proposal. On March 10, 1999, they 
enacted Resolution No. 99-D-07 reaffirming the earlier resolution 
supporting the Western Shoshone Claims distribution proposal. The Ely 
Tribal Council enacted Resolution No. 2001-EST-44 on October 9, 2001, 
supporting S. 958 and H.R. 2851. We have been advised that the Yomba 
Tribal Council continues to oppose the distribution. Several other 
tribes with enrolled tribal members that would be eligible to share in 
the judgment fund distribution under S. 958 have also enacted 
resolutions supporting the distribution. Those tribes are Duck Valley, 
Fallon and Fort McDermitt. The Shoshone-Paiute Tribal Business Council 
of Duck Valley withdrew its support of S. 958 by Resolution No. 2002-
SPR-012, dated November 13, 2001. However, the Western Shoshones of 
Duck Valley continue to support the bill.
    We support the enactment of S. 958 because we believe that it 
reflects the wishes of the vast majority of the Western Shoshone 
people. We are also pleased that three of the four successor tribes 
have expressed their support of the distribution, as well as two other 
tribes with a significant number of tribal members of Western Shoshone 
descent.
    Section 2 of S. 958 proposes to distribute the Western Shoshone 
land claims funds that were awarded in Docket 326-K, 100 percent per 
capita to approximately 6,500 individuals who have at least one-quarter 
degree of Western Shoshone Blood. The current balance of this fund, 
including interest, is $137,286,774. This section appears to be in 
accord with the wishes of the Western Shoshone people.
    Section 3 proposes to use the principal portion of the Western 
Shoshone accounting claims funds awarded in Dockets 326-A-1 and 326-A-3 
for a non-expendable Trust Fund. The interest and investment income 
will be available for educational grants and other forms of educational 
assistance to individual Western Shoshone members that are enrolled 
under section 2 of this act, and to their lineal descendants. The 
principal fund totals $754,136. The interest fund totals $591,845. This 
section appears to be in accord with the wishes of the Western Shoshone 
people.
    We understand that many of the beneficiaries of this treaty 
continue to believe in their rights under the Treaty of Ruby Valley and 
this subsection acts as a savings clause for whatever rights remain in 
effect. We are concerned that some tribes or individuals may believe 
that article 5 of the Treaty [land provisions] remains in effect. To be 
safe, the clause should read, ``Receipt of a share of the funds 
underthis subsection shall not alter any treaty rights, or the final 
decisions of the Federal Courts regarding those rights, pursuant to the 
1863 Treaty of Ruby Valley,'' inclusive. . . ''
    This concludes my prepared statement. We are submitting a report to 
be included into the record that gives a detailed history of the 
Western Shoshone claims. I will be happy to answer any questions the 
committee may have.
                                 ______
                                 

              Prepared Statement of Bonnie Eberhardt Bobb

    My name is Dr. Bonnie Eberhardt Bobb. I am married to Johnnie L. 
Bobb, a Western Shoshone spiritual person, and I am the step-mother to 
two Western Shoshone children. I have been associated with Western 
Shoshone people since 1986. I am now the Director of the Office of 
Environmental Protection for Yomba Shoshone Tribe. However, I am 
submitting this testimony as an individual.
    The Senate Committee on Indian Affairs has received much testimony 
concerning perceived illegalities concerning the Western Shoshone land 
claims, so I will not discuss these. Rather I will discuss differences 
that I see between Western, Shoshone beliefs and customs regarding land 
and the beliefs of typical Euroamerican society.
    In 1999 I completed my doctoral dissertation in cross-cultural 
psychology at The Pennsylvania State University researching the 
acculturation of Western Shoshone sense of self and spirituality. I 
assumed that Western Shoshone from three typical living situations 
would have different degrees of exposure to Euroamerican culture and 
thus different degrees of acculturation: (1) reservation dwellers in 
isolated areas e.g. Yomba Shoshone Tribe, (2) colony dwellers living in 
segregated communities close to or within towns e.g Fallon, and (3) 
urban dwellers, e.g. those who lived in cities like Reno or Las Vegas. 
Using standard scales of individualism vs collectivism, I found that 
Western Shoshone people actually were more collective in their belief 
system than most Asian cultures. I found that approximately 70 percent 
of Western Shoshone people felt more comfortable going to traditional 
Indian doctors than to clinics or hospitals, About 86 percent still 
retained some of the language. While approximately 10 percent of 
Euroamericans hunt on a regular basis (96 percent men, 4 percent 
women), over 50 percent of Western Shoshone, except for elders, still 
hunt to supplement their diet (52 percent men, 48 percent women). Over 
90 percent still harvest and eat pinenuts in the traditional methods. 
Most surprisingly, there was no significant level of acculturation of 
self-concept across exposure levels.
    What does this mean? The Western Shoshone are a very different 
culture. The Shoshone are still collective people. Rather than thinking 
of the earth as a thing to exploit, to seek personal gain, Shoshone 
think more in terms of the extended family and hold the earth as a 
sacred thing that must be passed to future generations of all people. 
They took to benefit the family through their actions rather than to 
what is beneficial to themselves personally. They are less competitive 
and not exploitative. They think of their land as owned by all. We 
might call this concept a joint tenancy in real estate. Everyone has 
equal share to all land. Therefore land cannot be sold without the 
consent of all of the others. All own all the land. They are still 
living off the land and using the land for food and spirituality. In 
short, the Western Shoshone people are very different from Euroamerican 
cultural groups.
    It is also obvious to me that this illegal vote is taking place at 
this particular time to hasten the process of acquiring the Yucca 
Mountain Nuclear Waste Repository. Yucca Mountain and the Nevada 
Nuclear Weapons Test Site are both on Western Shoshone ancesteral 
territory. The NRC requires clear title to the land to proceed with 
licensing Yucca Mountain, and the Ruby Valley Treaty of 1863 is a cloud 
on this title.
    In addition, the Ruby Valley Treaty of 1863 is very different from 
most of the other Indian treaties. The Ruby Valley Treaty ceded no 
land. It was one of the few in which there was no land cession. Also, 
the parties of interest included the western bands of Shoshone and 
``the people and government of the U.S.'' We are all parties to the 
injustice that is being perpetrated through S. 958.
    My husband was one of the individuals to go to Geneva for the Human 
Rights cases. The U.S. had findings tendered against it. They were to 
be made public in January or February of this year, 2002. Instead, the 
U.S. appears to have kept those violations secret. They would be an 
embarassment to the U.S. if disclosed during this hearing process. If 
they arc not disclosed, this is but another human rights violation 
against the Western Shoshone people. And, as citizens of the United 
States, party to the Treaty, we are in violation if we do not stop this 
further insult.
    Congress must seek to investigate the illegalities and violations 
that have occurred in the past and recently. The traditional government 
of the Western Shoshone people, the Western Shoshone National Council, 
should be full party to any negotiation. The Constitution of the United 
States holds treaty to be the ``supreme law of the land.'' As parties 
to the treaty and citizens of the United States, we must see that the 
divine intentions of the framers of the Constitution be honored.
                                 ______
                                 

  Prepared Statement of Winona Charles, Chairperson, Shoshone Claims 
                               Committee

    Good afternoon Mr. Chairman and Honorable Senators of the Senate 
Committee of Indian Affairs.
    I am here before you today on behalf of our Western Shoshone Claims 
Committee of Duck Valley Reservation regarding Docket numbers, 326-A-1, 
326-A-3, and 326-K.
    I extend our sincere appreciation for the opportunity to be heard 
this afternoon.
    My name is Winona Charles, Chairperson of Shoshone Claims 
Committee, full blood Shoshone, a great-grandmother, and proud mother 
of two (2) sons who served in the United States Armed Forces.
    It has been a long struggle for the Western Shoshones to the 
present time today, with much historical background.
    Four treaties were signed with the Shoshone Nation in 1863. One of 
these was the Treaty of Ruby Valley, Western Shoshones of Nevada. Under 
this treaty, Executive Order dated April 16, 1877, established Western 
Shoshone Reservation on public domain land lying partly in Nevada and 
Idaho. This land was set aside for Captain Sam and his group of 
Shoshones who expressed their desires as well as their needs and 
traditional ways of life. The ancestral homelands of the Western 
Shoshone people since time immemorial have deep religious roots and 
cultural significance in our aboriginal territories of Nevada and 
Idaho, extending into California. We continuously exercise our rights 
in hunting, fishing, gathering, protecting and preserving the natural 
resources and environment, for survival of the indigenous people who 
are the keepers of the treasures of Mother Earth. We continue to carry 
on our traditional way of life--the teachings of our old ones who 
passed on oral histories and beliefs.
    In 1885, Paddy Cap's band of Paiutes arrived at Duck Valley and, by 
Executive Order of May 4, 1886, the land was withdrawn and set aside in 
addition to the Western Shoshone Reservation. As a result of the 
Reorganization Act of 1936, the Western Shoshone Reservation became 
federally recognized as the Shoshone-Paiute Tribes of Duck Valley.
    The Shoshone-Paiute Tribes Council enacted Resolution 97-SPR-63. 
This resolution granted recognition to the Shoshone Claims Committee of 
Duck Valley for the purpose of handling all matters relating to the 
Western Shoshone Claims until finalization of all negotiations.
    We oppose the Shoshone-Paiute Tribes Council action to intervene in 
a negative manner because five of seven council members were recipients 
of funds from Northern Paiute Claims Award.
    The leadership of the Western Shoshones of Duck Valley will not 
tolerate the recipients of the Northern Paiute Claim Award to represent 
any Shoshones in these proposed legislations. Our committees speaks 
solely for our Western Shoshone band of Duck Valley to have a voice for 
our people in this process.
    It is clear to the majority of the Western Shoshone that the claims 
distributed with due haste of 326 K at 100 percent to those who meet 
the requirement of one-quarter degree blood quantum. We strongly 
support our perpetual education plan using 326A-1 and 326A-3.
    Thank you, Mr. Chairman and Honorable Senators of the Senate 
Committee of Indian Affairs, for the opportunity to be heard today on 
behalf of the Western Shoshones of Duck Valley, Owyhee, NV.
                                 ______
                                 

                 Prepared Statement of April T. George

    I am a Western Shoshone person whom this Senate bill personally 
affects and will affect the rights of my grandchildren and their 
children. I am not privileged to stand before you and make my testimony 
opposing this bill.
    A confidential report was issued to the Bush administration 
pertaining the case of Carrie and Mary Dann of the Dann Band of Western 
Shoshone v. United States (LACHR, No. 11.140), as the report has direct 
bearing on the Western Shoshone land rights that are put in jeopardy by 
S. 958. I encourage you and other members of the Senate Committee 
obtain a copy and review the report before the hearing of March 21, 
2002.
    S. 958 is deceptive and fraudulent in its context to extinguish 
title to the Western Shoshone territory of the 1863 Treaty of Ruby 
Valley by using Section 2(9) which states, ``Receipt of a share of the 
judgment funds under this section shall not be construed as a waiver of 
any existing treaty rights pursuant to the 1863 Treaty of Ruby Valley; 
inclusive of all articles I through VIII.'' The Indian Claims 
Commission Act states differently:
    ``The payment of any claim . . . shall be a full discharge of the 
United States of all claims and demands touching any of the matters 
involved in the controversy. Sec. 22(a).60 Stat. 1055, 25 U.S.C. 
Sec. 70u(a) (1976 ed.).'' It is very important that the Senate 
Committee address and clarify this deceptive language.
    The Western Shoshone Steering Committee are a group of individual 
people headed by Larry Piffero and Nancy Stewart, and are not the 
official tribal government. To my knowledge have not been authorized, 
sponsored, or endorsed by any of the recognized tribal governments. The 
officials of the Bureau of Indian Affairs are affiliated with this 
group, which in my opinion is in violation of the Government-to-
Government policy.
    The straw poll vote of May 1998 is based on a deceptive ballot and 
illegal voting, as testimony and voting were held simultaneously (again 
with Bureau of Indian Affairs participation, which was conducted by the 
Western Shoshone Steering Committee). I was there and I was appalled at 
the manner it was conducted. I refused to vote because the ballot did 
not present any other options other than distribution of funds.
    The Western Shoshone Distribution Claims Committee along with 
Bureau of Indian Affairs official, Daisy West, Tribal Relations 
Specialist, Washington DC and Fred Drye, Western Nevada Agency, 
submitted a finalized draft copy of the bill to Senator Reid's Reno 
Office July 30, 1999. There is no provision for land or other treaty 
rights. This committee, who is not a governmental body, drafted the 
bill.
    Their only motive is for distribution. This committee is telling 
the people they will receive twenty thousand dollars, which is purely 
fictional amount. This is a drop in a bucket, especially after the 
Federal Government and the State of Nevada have benefited from all the 
natural resources taken from the Western Shoshone territory.
    I oppose this bill in its entirety and pray that S. 958 be 
defeated.
                                 ______
                                 

                   Prepared Statement of Larry Greene

    Any hope that justice will derive from this Indian recognition 
hearing is misplaced for a number of reasons. One reason is the 
historical bias of key members of the Senate Indian Affairs Committee, 
namely Senators Inouye, Campbell, and McCain. Another reason, and more 
importantly, is the failure of the Federal Government to provide a 
rational explanation as to the purpose of Indian recognition and a 
clear definition of what an Indian tribe is.
    Allegedly, the purpose of Indian recognition is to make tribes 
self-determining sovereign nations. Yet, as long as Congress wields 
plenary power over all tribal affairs, including the existence of 
tribes, it is impossible for tribes to become self-determining 
sovereign nations. There exists no means testing, or any other 
criteria, indicating when tribes may be cut from the paternal umbilical 
cord of the Federal Government. This leads to only one rational 
conclusion: There is no true intent by the Federal Government to make 
tribes self-determining sovereign nations.
    The most popular attempt to define what an Indian tribe is was 
coined by Chief Justice John Marshall in the 1831 Cherokee Native v. 
Georgia. He noted that the U.S. Constitution did recognize entities 
called ``Indian tribes.'' He wrote that perhaps tribes could be 
denominated domestic, dependent nations. He meant maybe they were and 
maybe they weren't. Also, he gave no definition what he meant by a 
domestic, dependent nation, except that whatever rights which may have 
belonged to the Cherokee Nation, and thus all other tribes, that ``this 
is not the tribunal in which those rights are to be asserted.'' Tribes 
had no right to petition for a redress of grievances before the Supreme 
Court in 1831. Today they do.
    Once all Indians were made American citizens in 1924, they became 
entitled to the ``equal protection of the laws'' guarantee of the 
constitution's 14th Amendment. American citizenship for Indians made 
all constitutional references of ``Indians'' obsolete.
    The 1934 Indian Reorganization Act determines the recognition of 
tribes today. The recognition criteria per the 1934 IRA boils down to 
whomever the Interior Secretary deems is an Indian tribe, and Congress 
has recognized tribes on the fly. The socialistic intent of the 1934 
IRA was to separate Indians from the rest of American society and, 
thus, negating the constitutional protections of Indians when on trust 
land, in spite of their being American citizens. Such separation is 
racist and unconstitutional.
    The unsurprising result of this racist, unconstitutional policy is 
that Indians, as an ethnic group in America, easily ranks first in 
almost every category of social ills: Unemployment, alcoholism, high 
school dropouts, domestic violence, etc. The BIA has bilked tribes out 
of one-half billion trust fund dollars. Another result is impacts on 
non-Indian communities due to land annexation, casino gambling, 
liability immunity, etc. Last is the corrupting effect of campaign 
finance donations and who knows what funds are being transferred under 
the table.
    There is a lack of courage and/or wisdom by every local, state and 
Federal official in this nation to address whether or not the basic 
idea of Indian recognition is racist and unconstitutional. Because 
Indian recognition is racist and unconstitutional, it is impossible to 
correct the perceived flaws in the criteria or any other aspect of such 
a deplorable, arbitrary policy. The only proper option is the immediate 
termination of government recognition of Indian tribes.
                                 ______
                                 

Prepared Statement of John St. Clair, Enrolled Member, Eastern Shoshone 
                  Tribe, Wind River Indian Reservation

    Good afternoon Chairman Inouye and distinguished members of the 
Senate Indian Affairs Committee. Thank you for the invitation to come 
before you today to testify about a topic that has had a major impact 
upon the powers and authorities of Indian tribal governments.
    My name is John St. Clair. I am an enrolled member of the Eastern 
Shoshone Tribe of the Wind River Indian Reservation located in west 
central Wyoming. I am an attorney licensed in Wyoming and have been 
sitting as Chief Judge of the Shoshone and Arapahoe Tribal Court since 
1983. 1 am President of Wyoming Legal Services, President of Montana-
Wyoming Tribal Judges Association and a member of the Board of 
Directors of the National American Indian Court Judges Association 
(NAICJA).
    The Wind River Indian Reservation is jointly owned by the Eastern 
Shoshone and Northern Arapahoe Tribes (the Tribes). It is approximately 
3500 square miles in area inhabited by about 12,000 members of both 
tribes and other tribes, along with about 25,000 non-Indians.
    The Shoshone and Arapahoe Tribal Court through a comprehensive Law 
and Order Code extends jurisdiction over all Indians who commit 
offenses prohibited in the Code and over all persons who have 
significant contacts with the reservation. The Court consists of a 
Chief Judge who must be a professional attorney and three Associate 
Judges. There is a Court of Appeals comprised of the remaining three 
judges who did not hear the case. Jurisdiction is limited by applicable 
Federal law. Total case load for 2001 was approximately 3,500.
    Recent United States Supreme Court decisions have become a major 
concern to the Tribes due to their intensified passion to limit the 
sovereignty of Indian Tribes. In particular, within the Past ten (10) 
years tribes have lost 23 of 28 cases argued before the Court. Since 
the case of Oliphant v. Squamish Tribe, 435 U.S. 191 (1978), where the 
Court held by implication that tribes are without inherent jurisdiction 
to try non-Indians for crimes, a new doctrine has emerged that tribes 
lack certain powers that are inconsistent with their dependant status 
even when Congress has not acted to curtail those powers. This new 
doctrine has been extended to the civil regulatory area by Montana v. 
United States, 450 U.S. 544 (1981), the adjudicatory area by States v. 
A-1 Contractors, 520 U.S. 438 (1997) and in 2001, in Atkinson Trading 
Post v. Shirley, 531 U.S. 1009 (2001) to a hotel occupancy tax imposed 
by the Navajo Nation. The most recent extension of the doctrine is 
Nevada v. Hicks, 121 S. Ct. 2304 (2001) where it was held that tribes 
lack jurisdiction over civil suits against State officials for 
violating the rights of Indians on Indian land within a reservation.
    The impact of and its progeny on the powers and authorities of 
Indian tribal governments is that it severely restricts the ability to 
exercise basic regulatory and adjudicatory functions when dealing with 
everyday activities on reservations. When both Indians and non-Indians 
are involved in domestic violence, alcohol and/or drug related 
disturbances or a other criminal activity, tribes can adjudicate only 
Indians while non-Indians, even when detained and turned over to state 
authorities, go unpunished. This double standard of justice creates 
resentment and projects an image that non-Indians are above the law in 
the area where they choose to reside or enter into.
    The affect on tribes of not being able to regulate taxing, hunting 
and fishing, the environment, zoning, traffic, etc. placed limitations 
on economic development and self-sufficiency. Without the ability to 
generate revenues to fund basic governmental functions, tribes become 
more and more dependant on Federal grants, contracts and compacts, as a 
sole source of funding. This results in an increased economic burden 
that ultimately falls on the Federal Government.
    Tribal courts constitute one of the frontline institutions 
confronted with the issues involving sovereignty? while charged with 
providing reliable and equitable adjudication of increased numbers of 
criminal matters and complex civil litigation. Tribes and their court 
agonize over the same issues State and Federal courts confront. Child 
sexual abuse, alcohol and substance abuse, gang violence, violence 
against women, child neglect, pollution of the air, water, and earth, 
are just some of these common yet complicated problems that arise on 
Indian reservations. The vast panarama of cases handled by the 500 plus 
tribes in their courts would significantly increase the caseloads of 
Federal District Courts and also local State courts, if tribal courts 
no longer existed. The increased cost to Federal and State courts would 
also result in major budget short falls.
    The recent trend of the United States Supreme Court toward judicial 
termination poses the greatest threat to tribes since the allotment era 
of the 1 91h Century and Congressional termination of the mid-20th 
Century. This trend runs counter to the proclaimed Federal policy of 
self-determination that has repudiated the allotment and termination 
policies.
    America's Third Sovereign, the Indian tribes, occupying Indian 
Country come before this distinguished body to ask that you utilize the 
plenary power of Congress in Indian affairs conferred upon you by the 
Indian Commence Clause, article 1, Section 8, clause 3, of the Untied 
States Constitution. We request that you restore and reaffirm the 
inherent regulatory and adjudicatory authority of tribes over all 
persons and all land within Indian Country as defined in 18 U.S.C. Sec. 
1151. This approach would place the exercise of jurisdiction in the 
hands of the? Tribes and the extent of it within their organic 
documents and case law making it a question of tribal law.
    Again I want to thank you for this unique opportunity that you have 
provided on behalf of my tribes and all the Indian tribes.
[GRAPHIC] [TIFF OMITTED] T2885.001

[GRAPHIC] [TIFF OMITTED] T2885.002

[GRAPHIC] [TIFF OMITTED] T2885.003

[GRAPHIC] [TIFF OMITTED] T2885.004

[GRAPHIC] [TIFF OMITTED] T2885.005

[GRAPHIC] [TIFF OMITTED] T2885.006

[GRAPHIC] [TIFF OMITTED] T2885.007

[GRAPHIC] [TIFF OMITTED] T2885.008

[GRAPHIC] [TIFF OMITTED] T2885.009

[GRAPHIC] [TIFF OMITTED] T2885.010

[GRAPHIC] [TIFF OMITTED] T2885.011

[GRAPHIC] [TIFF OMITTED] T2885.012

[GRAPHIC] [TIFF OMITTED] T2885.013

[GRAPHIC] [TIFF OMITTED] T2885.014

[GRAPHIC] [TIFF OMITTED] T2885.015

[GRAPHIC] [TIFF OMITTED] T2885.016

[GRAPHIC] [TIFF OMITTED] T2885.017

[GRAPHIC] [TIFF OMITTED] T2885.018

[GRAPHIC] [TIFF OMITTED] T2885.019

[GRAPHIC] [TIFF OMITTED] T2885.020

[GRAPHIC] [TIFF OMITTED] T2885.021

[GRAPHIC] [TIFF OMITTED] T2885.022

[GRAPHIC] [TIFF OMITTED] T2885.023

[GRAPHIC] [TIFF OMITTED] T2885.024

[GRAPHIC] [TIFF OMITTED] T2885.025

[GRAPHIC] [TIFF OMITTED] T2885.026

[GRAPHIC] [TIFF OMITTED] T2885.027

[GRAPHIC] [TIFF OMITTED] T2885.028

[GRAPHIC] [TIFF OMITTED] T2885.029

[GRAPHIC] [TIFF OMITTED] T2885.030

[GRAPHIC] [TIFF OMITTED] T2885.031

[GRAPHIC] [TIFF OMITTED] T2885.032

[GRAPHIC] [TIFF OMITTED] T2885.033

[GRAPHIC] [TIFF OMITTED] T2885.034

[GRAPHIC] [TIFF OMITTED] T2885.035

[GRAPHIC] [TIFF OMITTED] T2885.036

[GRAPHIC] [TIFF OMITTED] T2885.037

[GRAPHIC] [TIFF OMITTED] T2885.038

[GRAPHIC] [TIFF OMITTED] T2885.039

[GRAPHIC] [TIFF OMITTED] T2885.040

[GRAPHIC] [TIFF OMITTED] T2885.041

[GRAPHIC] [TIFF OMITTED] T2885.042

[GRAPHIC] [TIFF OMITTED] T2885.043

[GRAPHIC] [TIFF OMITTED] T2885.044

[GRAPHIC] [TIFF OMITTED] T2885.045

[GRAPHIC] [TIFF OMITTED] T2885.046

[GRAPHIC] [TIFF OMITTED] T2885.047

[GRAPHIC] [TIFF OMITTED] T2885.048

[GRAPHIC] [TIFF OMITTED] T2885.049

[GRAPHIC] [TIFF OMITTED] T2885.050

[GRAPHIC] [TIFF OMITTED] T2885.051

[GRAPHIC] [TIFF OMITTED] T2885.052

[GRAPHIC] [TIFF OMITTED] T2885.053

[GRAPHIC] [TIFF OMITTED] T2885.054

[GRAPHIC] [TIFF OMITTED] T2885.055

[GRAPHIC] [TIFF OMITTED] T2885.056

[GRAPHIC] [TIFF OMITTED] T2885.057

[GRAPHIC] [TIFF OMITTED] T2885.058

[GRAPHIC] [TIFF OMITTED] T2885.059

[GRAPHIC] [TIFF OMITTED] T2885.060

[GRAPHIC] [TIFF OMITTED] T2885.061

[GRAPHIC] [TIFF OMITTED] T2885.062

[GRAPHIC] [TIFF OMITTED] T2885.063

[GRAPHIC] [TIFF OMITTED] T2885.064

[GRAPHIC] [TIFF OMITTED] T2885.065

[GRAPHIC] [TIFF OMITTED] T2885.066

[GRAPHIC] [TIFF OMITTED] T2885.067

[GRAPHIC] [TIFF OMITTED] T2885.068

[GRAPHIC] [TIFF OMITTED] T2885.069

[GRAPHIC] [TIFF OMITTED] T2885.070

[GRAPHIC] [TIFF OMITTED] T2885.071

[GRAPHIC] [TIFF OMITTED] T2885.072

[GRAPHIC] [TIFF OMITTED] T2885.073

[GRAPHIC] [TIFF OMITTED] T2885.074

[GRAPHIC] [TIFF OMITTED] T2885.075

[GRAPHIC] [TIFF OMITTED] T2885.076

[GRAPHIC] [TIFF OMITTED] T2885.077

[GRAPHIC] [TIFF OMITTED] T2885.078

[GRAPHIC] [TIFF OMITTED] T2885.079

[GRAPHIC] [TIFF OMITTED] T2885.080

[GRAPHIC] [TIFF OMITTED] T2885.081

[GRAPHIC] [TIFF OMITTED] T2885.082

[GRAPHIC] [TIFF OMITTED] T2885.083

[GRAPHIC] [TIFF OMITTED] T2885.084

[GRAPHIC] [TIFF OMITTED] T2885.085

[GRAPHIC] [TIFF OMITTED] T2885.086

[GRAPHIC] [TIFF OMITTED] T2885.087

[GRAPHIC] [TIFF OMITTED] T2885.088

[GRAPHIC] [TIFF OMITTED] T2885.089

[GRAPHIC] [TIFF OMITTED] T2885.090

[GRAPHIC] [TIFF OMITTED] T2885.091

[GRAPHIC] [TIFF OMITTED] T2885.092

[GRAPHIC] [TIFF OMITTED] T2885.093

[GRAPHIC] [TIFF OMITTED] T2885.094

[GRAPHIC] [TIFF OMITTED] T2885.095

[GRAPHIC] [TIFF OMITTED] T2885.096

[GRAPHIC] [TIFF OMITTED] T2885.097

[GRAPHIC] [TIFF OMITTED] T2885.098

[GRAPHIC] [TIFF OMITTED] T2885.099

[GRAPHIC] [TIFF OMITTED] T2885.100

[GRAPHIC] [TIFF OMITTED] T2885.101

[GRAPHIC] [TIFF OMITTED] T2885.102

[GRAPHIC] [TIFF OMITTED] T2885.103

[GRAPHIC] [TIFF OMITTED] T2885.104

[GRAPHIC] [TIFF OMITTED] T2885.105

[GRAPHIC] [TIFF OMITTED] T2885.106

[GRAPHIC] [TIFF OMITTED] T2885.107

[GRAPHIC] [TIFF OMITTED] T2885.108

[GRAPHIC] [TIFF OMITTED] T2885.109

[GRAPHIC] [TIFF OMITTED] T2885.110

[GRAPHIC] [TIFF OMITTED] T2885.111

[GRAPHIC] [TIFF OMITTED] T2885.112

[GRAPHIC] [TIFF OMITTED] T2885.113

[GRAPHIC] [TIFF OMITTED] T2885.114

[GRAPHIC] [TIFF OMITTED] T2885.115

[GRAPHIC] [TIFF OMITTED] T2885.116

[GRAPHIC] [TIFF OMITTED] T2885.117

[GRAPHIC] [TIFF OMITTED] T2885.118

[GRAPHIC] [TIFF OMITTED] T2885.119

[GRAPHIC] [TIFF OMITTED] T2885.120

[GRAPHIC] [TIFF OMITTED] T2885.121

[GRAPHIC] [TIFF OMITTED] T2885.122

[GRAPHIC] [TIFF OMITTED] T2885.123

[GRAPHIC] [TIFF OMITTED] T2885.124

[GRAPHIC] [TIFF OMITTED] T2885.125

[GRAPHIC] [TIFF OMITTED] T2885.126

[GRAPHIC] [TIFF OMITTED] T2885.127

[GRAPHIC] [TIFF OMITTED] T2885.128

[GRAPHIC] [TIFF OMITTED] T2885.129

[GRAPHIC] [TIFF OMITTED] T2885.130

[GRAPHIC] [TIFF OMITTED] T2885.131

[GRAPHIC] [TIFF OMITTED] T2885.132

[GRAPHIC] [TIFF OMITTED] T2885.133

[GRAPHIC] [TIFF OMITTED] T2885.134

[GRAPHIC] [TIFF OMITTED] T2885.135

[GRAPHIC] [TIFF OMITTED] T2885.136

[GRAPHIC] [TIFF OMITTED] T2885.137

[GRAPHIC] [TIFF OMITTED] T2885.138

[GRAPHIC] [TIFF OMITTED] T2885.139

[GRAPHIC] [TIFF OMITTED] T2885.140

[GRAPHIC] [TIFF OMITTED] T2885.141

[GRAPHIC] [TIFF OMITTED] T2885.142

[GRAPHIC] [TIFF OMITTED] T2885.143

[GRAPHIC] [TIFF OMITTED] T2885.144

[GRAPHIC] [TIFF OMITTED] T2885.145

[GRAPHIC] [TIFF OMITTED] T2885.146

[GRAPHIC] [TIFF OMITTED] T2885.147

[GRAPHIC] [TIFF OMITTED] T2885.148

[GRAPHIC] [TIFF OMITTED] T2885.149

[GRAPHIC] [TIFF OMITTED] T2885.150

[GRAPHIC] [TIFF OMITTED] T2885.151

[GRAPHIC] [TIFF OMITTED] T2885.152

[GRAPHIC] [TIFF OMITTED] T2885.153

[GRAPHIC] [TIFF OMITTED] T2885.154

[GRAPHIC] [TIFF OMITTED] T2885.155

[GRAPHIC] [TIFF OMITTED] T2885.156

[GRAPHIC] [TIFF OMITTED] T2885.157

[GRAPHIC] [TIFF OMITTED] T2885.158

[GRAPHIC] [TIFF OMITTED] T2885.159

[GRAPHIC] [TIFF OMITTED] T2885.160

[GRAPHIC] [TIFF OMITTED] T2885.161

[GRAPHIC] [TIFF OMITTED] T2885.162

[GRAPHIC] [TIFF OMITTED] T2885.163

[GRAPHIC] [TIFF OMITTED] T2885.164

[GRAPHIC] [TIFF OMITTED] T2885.165

[GRAPHIC] [TIFF OMITTED] T2885.166

[GRAPHIC] [TIFF OMITTED] T2885.167

[GRAPHIC] [TIFF OMITTED] T2885.168

[GRAPHIC] [TIFF OMITTED] T2885.169

[GRAPHIC] [TIFF OMITTED] T2885.170

[GRAPHIC] [TIFF OMITTED] T2885.171

[GRAPHIC] [TIFF OMITTED] T2885.172

[GRAPHIC] [TIFF OMITTED] T2885.173

[GRAPHIC] [TIFF OMITTED] T2885.174

[GRAPHIC] [TIFF OMITTED] T2885.175

[GRAPHIC] [TIFF OMITTED] T2885.176

[GRAPHIC] [TIFF OMITTED] T2885.177

[GRAPHIC] [TIFF OMITTED] T2885.178

[GRAPHIC] [TIFF OMITTED] T2885.179

[GRAPHIC] [TIFF OMITTED] T2885.180

[GRAPHIC] [TIFF OMITTED] T2885.181

[GRAPHIC] [TIFF OMITTED] T2885.182

[GRAPHIC] [TIFF OMITTED] T2885.183

[GRAPHIC] [TIFF OMITTED] T2885.184

[GRAPHIC] [TIFF OMITTED] T2885.185

[GRAPHIC] [TIFF OMITTED] T2885.186

[GRAPHIC] [TIFF OMITTED] T2885.187

[GRAPHIC] [TIFF OMITTED] T2885.188

[GRAPHIC] [TIFF OMITTED] T2885.189

[GRAPHIC] [TIFF OMITTED] T2885.190

[GRAPHIC] [TIFF OMITTED] T2885.191

[GRAPHIC] [TIFF OMITTED] T2885.192

[GRAPHIC] [TIFF OMITTED] T2885.193

[GRAPHIC] [TIFF OMITTED] T2885.194

[GRAPHIC] [TIFF OMITTED] T2885.195

[GRAPHIC] [TIFF OMITTED] T2885.196

[GRAPHIC] [TIFF OMITTED] T2885.197

[GRAPHIC] [TIFF OMITTED] T2885.198

[GRAPHIC] [TIFF OMITTED] T2885.199

[GRAPHIC] [TIFF OMITTED] T2885.200

[GRAPHIC] [TIFF OMITTED] T2885.201

[GRAPHIC] [TIFF OMITTED] T2885.202

[GRAPHIC] [TIFF OMITTED] T2885.203

[GRAPHIC] [TIFF OMITTED] T2885.204

[GRAPHIC] [TIFF OMITTED] T2885.205

[GRAPHIC] [TIFF OMITTED] T2885.206

[GRAPHIC] [TIFF OMITTED] T2885.207

[GRAPHIC] [TIFF OMITTED] T2885.208

[GRAPHIC] [TIFF OMITTED] T2885.209

[GRAPHIC] [TIFF OMITTED] T2885.210

[GRAPHIC] [TIFF OMITTED] T2885.211

[GRAPHIC] [TIFF OMITTED] T2885.212

[GRAPHIC] [TIFF OMITTED] T2885.213

[GRAPHIC] [TIFF OMITTED] T2885.214

[GRAPHIC] [TIFF OMITTED] T2885.215

[GRAPHIC] [TIFF OMITTED] T2885.216

[GRAPHIC] [TIFF OMITTED] T2885.217

[GRAPHIC] [TIFF OMITTED] T2885.218

[GRAPHIC] [TIFF OMITTED] T2885.219

[GRAPHIC] [TIFF OMITTED] T2885.220

[GRAPHIC] [TIFF OMITTED] T2885.221

[GRAPHIC] [TIFF OMITTED] T2885.222

[GRAPHIC] [TIFF OMITTED] T2885.223

[GRAPHIC] [TIFF OMITTED] T2885.224

[GRAPHIC] [TIFF OMITTED] T2885.225

[GRAPHIC] [TIFF OMITTED] T2885.226

[GRAPHIC] [TIFF OMITTED] T2885.227

[GRAPHIC] [TIFF OMITTED] T2885.228

[GRAPHIC] [TIFF OMITTED] T2885.229

[GRAPHIC] [TIFF OMITTED] T2885.230

[GRAPHIC] [TIFF OMITTED] T2885.231

[GRAPHIC] [TIFF OMITTED] T2885.232

[GRAPHIC] [TIFF OMITTED] T2885.233

[GRAPHIC] [TIFF OMITTED] T2885.234

[GRAPHIC] [TIFF OMITTED] T2885.235

[GRAPHIC] [TIFF OMITTED] T2885.236

[GRAPHIC] [TIFF OMITTED] T2885.237

[GRAPHIC] [TIFF OMITTED] T2885.238

[GRAPHIC] [TIFF OMITTED] T2885.239

[GRAPHIC] [TIFF OMITTED] T2885.240

[GRAPHIC] [TIFF OMITTED] T2885.241

[GRAPHIC] [TIFF OMITTED] T2885.242

[GRAPHIC] [TIFF OMITTED] T2885.243

[GRAPHIC] [TIFF OMITTED] T2885.244

[GRAPHIC] [TIFF OMITTED] T2885.245

[GRAPHIC] [TIFF OMITTED] T2885.246

[GRAPHIC] [TIFF OMITTED] T2885.247

[GRAPHIC] [TIFF OMITTED] T2885.248

[GRAPHIC] [TIFF OMITTED] T2885.249

[GRAPHIC] [TIFF OMITTED] T2885.250

[GRAPHIC] [TIFF OMITTED] T2885.251

[GRAPHIC] [TIFF OMITTED] T2885.252

[GRAPHIC] [TIFF OMITTED] T2885.253

[GRAPHIC] [TIFF OMITTED] T2885.254

[GRAPHIC] [TIFF OMITTED] T2885.255

[GRAPHIC] [TIFF OMITTED] T2885.256

[GRAPHIC] [TIFF OMITTED] T2885.257

[GRAPHIC] [TIFF OMITTED] T2885.258

[GRAPHIC] [TIFF OMITTED] T2885.259

[GRAPHIC] [TIFF OMITTED] T2885.260

[GRAPHIC] [TIFF OMITTED] T2885.261

[GRAPHIC] [TIFF OMITTED] T2885.262

[GRAPHIC] [TIFF OMITTED] T2885.263

[GRAPHIC] [TIFF OMITTED] T2885.264

[GRAPHIC] [TIFF OMITTED] T2885.265

[GRAPHIC] [TIFF OMITTED] T2885.266

[GRAPHIC] [TIFF OMITTED] T2885.267

[GRAPHIC] [TIFF OMITTED] T2885.268

[GRAPHIC] [TIFF OMITTED] T2885.269

[GRAPHIC] [TIFF OMITTED] T2885.270

[GRAPHIC] [TIFF OMITTED] T2885.271

[GRAPHIC] [TIFF OMITTED] T2885.272

[GRAPHIC] [TIFF OMITTED] T2885.273

[GRAPHIC] [TIFF OMITTED] T2885.274

[GRAPHIC] [TIFF OMITTED] T2885.275

[GRAPHIC] [TIFF OMITTED] T2885.276

[GRAPHIC] [TIFF OMITTED] T2885.277

[GRAPHIC] [TIFF OMITTED] T2885.278

[GRAPHIC] [TIFF OMITTED] T2885.279

[GRAPHIC] [TIFF OMITTED] T2885.280

[GRAPHIC] [TIFF OMITTED] T2885.281

[GRAPHIC] [TIFF OMITTED] T2885.282

[GRAPHIC] [TIFF OMITTED] T2885.283

[GRAPHIC] [TIFF OMITTED] T2885.284

[GRAPHIC] [TIFF OMITTED] T2885.285

[GRAPHIC] [TIFF OMITTED] T2885.286

[GRAPHIC] [TIFF OMITTED] T2885.287

[GRAPHIC] [TIFF OMITTED] T2885.288

[GRAPHIC] [TIFF OMITTED] T2885.289

[GRAPHIC] [TIFF OMITTED] T2885.290

[GRAPHIC] [TIFF OMITTED] T2885.291

[GRAPHIC] [TIFF OMITTED] T2885.292

[GRAPHIC] [TIFF OMITTED] T2885.293

[GRAPHIC] [TIFF OMITTED] T2885.294

[GRAPHIC] [TIFF OMITTED] T2885.295

[GRAPHIC] [TIFF OMITTED] T2885.296

[GRAPHIC] [TIFF OMITTED] T2885.297

[GRAPHIC] [TIFF OMITTED] T2885.298

[GRAPHIC] [TIFF OMITTED] T2885.299

[GRAPHIC] [TIFF OMITTED] T2885.300

[GRAPHIC] [TIFF OMITTED] T2885.301

[GRAPHIC] [TIFF OMITTED] T2885.302

[GRAPHIC] [TIFF OMITTED] T2885.303

[GRAPHIC] [TIFF OMITTED] T2885.304

[GRAPHIC] [TIFF OMITTED] T2885.305

[GRAPHIC] [TIFF OMITTED] T2885.306

[GRAPHIC] [TIFF OMITTED] T2885.307

[GRAPHIC] [TIFF OMITTED] T2885.308

[GRAPHIC] [TIFF OMITTED] T2885.309

[GRAPHIC] [TIFF OMITTED] T2885.310

[GRAPHIC] [TIFF OMITTED] T2885.311

[GRAPHIC] [TIFF OMITTED] T2885.312

[GRAPHIC] [TIFF OMITTED] T2885.313

[GRAPHIC] [TIFF OMITTED] T2885.314

[GRAPHIC] [TIFF OMITTED] T2885.315

[GRAPHIC] [TIFF OMITTED] T2885.316

[GRAPHIC] [TIFF OMITTED] T2885.317

[GRAPHIC] [TIFF OMITTED] T2885.318

[GRAPHIC] [TIFF OMITTED] T2885.319

[GRAPHIC] [TIFF OMITTED] T2885.320

[GRAPHIC] [TIFF OMITTED] T2885.321

[GRAPHIC] [TIFF OMITTED] T2885.322

[GRAPHIC] [TIFF OMITTED] T2885.323

[GRAPHIC] [TIFF OMITTED] T2885.324

[GRAPHIC] [TIFF OMITTED] T2885.325

[GRAPHIC] [TIFF OMITTED] T2885.326

[GRAPHIC] [TIFF OMITTED] T2885.327

[GRAPHIC] [TIFF OMITTED] T2885.328

[GRAPHIC] [TIFF OMITTED] T2885.329

[GRAPHIC] [TIFF OMITTED] T2885.330

[GRAPHIC] [TIFF OMITTED] T2885.331

[GRAPHIC] [TIFF OMITTED] T2885.332

[GRAPHIC] [TIFF OMITTED] T2885.333

[GRAPHIC] [TIFF OMITTED] T2885.334

[GRAPHIC] [TIFF OMITTED] T2885.335

[GRAPHIC] [TIFF OMITTED] T2885.336

[GRAPHIC] [TIFF OMITTED] T2885.337

[GRAPHIC] [TIFF OMITTED] T2885.338

[GRAPHIC] [TIFF OMITTED] T2885.339

[GRAPHIC] [TIFF OMITTED] T2885.340

[GRAPHIC] [TIFF OMITTED] T2885.341

[GRAPHIC] [TIFF OMITTED] T2885.342

[GRAPHIC] [TIFF OMITTED] T2885.343

[GRAPHIC] [TIFF OMITTED] T2885.344

[GRAPHIC] [TIFF OMITTED] T2885.345

[GRAPHIC] [TIFF OMITTED] T2885.346

[GRAPHIC] [TIFF OMITTED] T2885.347

[GRAPHIC] [TIFF OMITTED] T2885.348

[GRAPHIC] [TIFF OMITTED] T2885.349

[GRAPHIC] [TIFF OMITTED] T2885.350

[GRAPHIC] [TIFF OMITTED] T2885.351

[GRAPHIC] [TIFF OMITTED] T2885.352

[GRAPHIC] [TIFF OMITTED] T2885.353

[GRAPHIC] [TIFF OMITTED] T2885.354

[GRAPHIC] [TIFF OMITTED] T2885.355

[GRAPHIC] [TIFF OMITTED] T2885.356

[GRAPHIC] [TIFF OMITTED] T2885.357

[GRAPHIC] [TIFF OMITTED] T2885.358

[GRAPHIC] [TIFF OMITTED] T2885.359

[GRAPHIC] [TIFF OMITTED] T2885.360

[GRAPHIC] [TIFF OMITTED] T2885.361

[GRAPHIC] [TIFF OMITTED] T2885.362

[GRAPHIC] [TIFF OMITTED] T2885.363

[GRAPHIC] [TIFF OMITTED] T2885.364

[GRAPHIC] [TIFF OMITTED] T2885.365

[GRAPHIC] [TIFF OMITTED] T2885.366

[GRAPHIC] [TIFF OMITTED] T2885.367

[GRAPHIC] [TIFF OMITTED] T2885.368

[GRAPHIC] [TIFF OMITTED] T2885.369

[GRAPHIC] [TIFF OMITTED] T2885.370

[GRAPHIC] [TIFF OMITTED] T2885.371

[GRAPHIC] [TIFF OMITTED] T2885.372

[GRAPHIC] [TIFF OMITTED] T2885.373

[GRAPHIC] [TIFF OMITTED] T2885.374

[GRAPHIC] [TIFF OMITTED] T2885.375

[GRAPHIC] [TIFF OMITTED] T2885.376

[GRAPHIC] [TIFF OMITTED] T2885.377

[GRAPHIC] [TIFF OMITTED] T2885.378

[GRAPHIC] [TIFF OMITTED] T2885.379

[GRAPHIC] [TIFF OMITTED] T2885.380

[GRAPHIC] [TIFF OMITTED] T2885.381

[GRAPHIC] [TIFF OMITTED] T2885.382

[GRAPHIC] [TIFF OMITTED] T2885.383

[GRAPHIC] [TIFF OMITTED] T2885.384

[GRAPHIC] [TIFF OMITTED] T2885.385

[GRAPHIC] [TIFF OMITTED] T2885.386

[GRAPHIC] [TIFF OMITTED] T2885.387

[GRAPHIC] [TIFF OMITTED] T2885.388

[GRAPHIC] [TIFF OMITTED] T2885.389

[GRAPHIC] [TIFF OMITTED] T2885.390

[GRAPHIC] [TIFF OMITTED] T2885.391

[GRAPHIC] [TIFF OMITTED] T2885.392

[GRAPHIC] [TIFF OMITTED] T2885.393

[GRAPHIC] [TIFF OMITTED] T2885.394

[GRAPHIC] [TIFF OMITTED] T2885.395

[GRAPHIC] [TIFF OMITTED] T2885.396

[GRAPHIC] [TIFF OMITTED] T2885.397

[GRAPHIC] [TIFF OMITTED] T2885.398

[GRAPHIC] [TIFF OMITTED] T2885.399

[GRAPHIC] [TIFF OMITTED] T2885.400

[GRAPHIC] [TIFF OMITTED] T2885.401

[GRAPHIC] [TIFF OMITTED] T2885.402

[GRAPHIC] [TIFF OMITTED] T2885.403

[GRAPHIC] [TIFF OMITTED] T2885.404

[GRAPHIC] [TIFF OMITTED] T2885.405

[GRAPHIC] [TIFF OMITTED] T2885.406

[GRAPHIC] [TIFF OMITTED] T2885.407

[GRAPHIC] [TIFF OMITTED] T2885.408

[GRAPHIC] [TIFF OMITTED] T2885.409

[GRAPHIC] [TIFF OMITTED] T2885.410

[GRAPHIC] [TIFF OMITTED] T2885.411

[GRAPHIC] [TIFF OMITTED] T2885.412

[GRAPHIC] [TIFF OMITTED] T2885.413

[GRAPHIC] [TIFF OMITTED] T2885.414

[GRAPHIC] [TIFF OMITTED] T2885.415

[GRAPHIC] [TIFF OMITTED] T2885.416

[GRAPHIC] [TIFF OMITTED] T2885.417

[GRAPHIC] [TIFF OMITTED] T2885.418

[GRAPHIC] [TIFF OMITTED] T2885.419

[GRAPHIC] [TIFF OMITTED] T2885.420

[GRAPHIC] [TIFF OMITTED] T2885.421

[GRAPHIC] [TIFF OMITTED] T2885.422

[GRAPHIC] [TIFF OMITTED] T2885.423

[GRAPHIC] [TIFF OMITTED] T2885.424

[GRAPHIC] [TIFF OMITTED] T2885.425

[GRAPHIC] [TIFF OMITTED] T2885.426

[GRAPHIC] [TIFF OMITTED] T2885.427

[GRAPHIC] [TIFF OMITTED] T2885.428

[GRAPHIC] [TIFF OMITTED] T2885.429

[GRAPHIC] [TIFF OMITTED] T2885.430

[GRAPHIC] [TIFF OMITTED] T2885.431

[GRAPHIC] [TIFF OMITTED] T2885.432

[GRAPHIC] [TIFF OMITTED] T2885.433

[GRAPHIC] [TIFF OMITTED] T2885.434

[GRAPHIC] [TIFF OMITTED] T2885.435

[GRAPHIC] [TIFF OMITTED] T2885.436

[GRAPHIC] [TIFF OMITTED] T2885.437

[GRAPHIC] [TIFF OMITTED] T2885.438

[GRAPHIC] [TIFF OMITTED] T2885.439

[GRAPHIC] [TIFF OMITTED] T2885.440

[GRAPHIC] [TIFF OMITTED] T2885.441

[GRAPHIC] [TIFF OMITTED] T2885.442

[GRAPHIC] [TIFF OMITTED] T2885.443

[GRAPHIC] [TIFF OMITTED] T2885.444

[GRAPHIC] [TIFF OMITTED] T2885.445

[GRAPHIC] [TIFF OMITTED] T2885.446

[GRAPHIC] [TIFF OMITTED] T2885.447

[GRAPHIC] [TIFF OMITTED] T2885.448

[GRAPHIC] [TIFF OMITTED] T2885.449

[GRAPHIC] [TIFF OMITTED] T2885.450

[GRAPHIC] [TIFF OMITTED] T2885.451

[GRAPHIC] [TIFF OMITTED] T2885.452

[GRAPHIC] [TIFF OMITTED] T2885.453

[GRAPHIC] [TIFF OMITTED] T2885.454

[GRAPHIC] [TIFF OMITTED] T2885.455

[GRAPHIC] [TIFF OMITTED] T2885.456

[GRAPHIC] [TIFF OMITTED] T2885.457

[GRAPHIC] [TIFF OMITTED] T2885.458

[GRAPHIC] [TIFF OMITTED] T2885.459

[GRAPHIC] [TIFF OMITTED] T2885.460

[GRAPHIC] [TIFF OMITTED] T2885.461

[GRAPHIC] [TIFF OMITTED] T2885.462

[GRAPHIC] [TIFF OMITTED] T2885.463

[GRAPHIC] [TIFF OMITTED] T2885.464

[GRAPHIC] [TIFF OMITTED] T2885.465

[GRAPHIC] [TIFF OMITTED] T2885.466

[GRAPHIC] [TIFF OMITTED] T2885.467

[GRAPHIC] [TIFF OMITTED] T2885.468

[GRAPHIC] [TIFF OMITTED] T2885.469

[GRAPHIC] [TIFF OMITTED] T2885.470

[GRAPHIC] [TIFF OMITTED] T2885.471

[GRAPHIC] [TIFF OMITTED] T2885.472

[GRAPHIC] [TIFF OMITTED] T2885.473

[GRAPHIC] [TIFF OMITTED] T2885.474

[GRAPHIC] [TIFF OMITTED] T2885.475

[GRAPHIC] [TIFF OMITTED] T2885.476

[GRAPHIC] [TIFF OMITTED] T2885.477

[GRAPHIC] [TIFF OMITTED] T2885.478

[GRAPHIC] [TIFF OMITTED] T2885.479

[GRAPHIC] [TIFF OMITTED] T2885.480

[GRAPHIC] [TIFF OMITTED] T2885.481

[GRAPHIC] [TIFF OMITTED] T2885.482

[GRAPHIC] [TIFF OMITTED] T2885.483

[GRAPHIC] [TIFF OMITTED] T2885.484

[GRAPHIC] [TIFF OMITTED] T2885.485

[GRAPHIC] [TIFF OMITTED] T2885.486

[GRAPHIC] [TIFF OMITTED] T2885.487

[GRAPHIC] [TIFF OMITTED] T2885.488

[GRAPHIC] [TIFF OMITTED] T2885.489

[GRAPHIC] [TIFF OMITTED] T2885.490

[GRAPHIC] [TIFF OMITTED] T2885.491

[GRAPHIC] [TIFF OMITTED] T2885.492

[GRAPHIC] [TIFF OMITTED] T2885.493

[GRAPHIC] [TIFF OMITTED] T2885.494

[GRAPHIC] [TIFF OMITTED] T2885.495

[GRAPHIC] [TIFF OMITTED] T2885.496

[GRAPHIC] [TIFF OMITTED] T2885.497

[GRAPHIC] [TIFF OMITTED] T2885.498

[GRAPHIC] [TIFF OMITTED] T2885.499

[GRAPHIC] [TIFF OMITTED] T2885.500

[GRAPHIC] [TIFF OMITTED] T2885.501

[GRAPHIC] [TIFF OMITTED] T2885.502

[GRAPHIC] [TIFF OMITTED] T2885.503

[GRAPHIC] [TIFF OMITTED] T2885.504

[GRAPHIC] [TIFF OMITTED] T2885.505

[GRAPHIC] [TIFF OMITTED] T2885.506

[GRAPHIC] [TIFF OMITTED] T2885.507

[GRAPHIC] [TIFF OMITTED] T2885.508

[GRAPHIC] [TIFF OMITTED] T2885.509

[GRAPHIC] [TIFF OMITTED] T2885.510

[GRAPHIC] [TIFF OMITTED] T2885.511

[GRAPHIC] [TIFF OMITTED] T2885.512

[GRAPHIC] [TIFF OMITTED] T2885.513

[GRAPHIC] [TIFF OMITTED] T2885.514

[GRAPHIC] [TIFF OMITTED] T2885.515

[GRAPHIC] [TIFF OMITTED] T2885.516

[GRAPHIC] [TIFF OMITTED] T2885.517

[GRAPHIC] [TIFF OMITTED] T2885.518

[GRAPHIC] [TIFF OMITTED] T2885.519

[GRAPHIC] [TIFF OMITTED] T2885.520

[GRAPHIC] [TIFF OMITTED] T2885.521

[GRAPHIC] [TIFF OMITTED] T2885.522

[GRAPHIC] [TIFF OMITTED] T2885.523

[GRAPHIC] [TIFF OMITTED] T2885.524

[GRAPHIC] [TIFF OMITTED] T2885.525

[GRAPHIC] [TIFF OMITTED] T2885.526

[GRAPHIC] [TIFF OMITTED] T2885.527

[GRAPHIC] [TIFF OMITTED] T2885.528

[GRAPHIC] [TIFF OMITTED] T2885.529

[GRAPHIC] [TIFF OMITTED] T2885.530

[GRAPHIC] [TIFF OMITTED] T2885.531

[GRAPHIC] [TIFF OMITTED] T2885.532

[GRAPHIC] [TIFF OMITTED] T2885.533

[GRAPHIC] [TIFF OMITTED] T2885.534

[GRAPHIC] [TIFF OMITTED] T2885.535

[GRAPHIC] [TIFF OMITTED] T2885.536

[GRAPHIC] [TIFF OMITTED] T2885.537

[GRAPHIC] [TIFF OMITTED] T2885.538

[GRAPHIC] [TIFF OMITTED] T2885.539

[GRAPHIC] [TIFF OMITTED] T2885.540

[GRAPHIC] [TIFF OMITTED] T2885.541

[GRAPHIC] [TIFF OMITTED] T2885.542

[GRAPHIC] [TIFF OMITTED] T2885.543

[GRAPHIC] [TIFF OMITTED] T2885.544

[GRAPHIC] [TIFF OMITTED] T2885.545

[GRAPHIC] [TIFF OMITTED] T2885.546

[GRAPHIC] [TIFF OMITTED] T2885.547

[GRAPHIC] [TIFF OMITTED] T2885.548

[GRAPHIC] [TIFF OMITTED] T2885.549

[GRAPHIC] [TIFF OMITTED] T2885.550

[GRAPHIC] [TIFF OMITTED] T2885.551

[GRAPHIC] [TIFF OMITTED] T2885.552

[GRAPHIC] [TIFF OMITTED] T2885.553

[GRAPHIC] [TIFF OMITTED] T2885.554

[GRAPHIC] [TIFF OMITTED] T2885.555

[GRAPHIC] [TIFF OMITTED] T2885.556

[GRAPHIC] [TIFF OMITTED] T2885.557

[GRAPHIC] [TIFF OMITTED] T2885.558

[GRAPHIC] [TIFF OMITTED] T2885.559

[GRAPHIC] [TIFF OMITTED] T2885.560

[GRAPHIC] [TIFF OMITTED] T2885.561

[GRAPHIC] [TIFF OMITTED] T2885.562

[GRAPHIC] [TIFF OMITTED] T2885.563

[GRAPHIC] [TIFF OMITTED] T2885.564

[GRAPHIC] [TIFF OMITTED] T2885.565

[GRAPHIC] [TIFF OMITTED] T2885.566

[GRAPHIC] [TIFF OMITTED] T2885.567

[GRAPHIC] [TIFF OMITTED] T2885.568

[GRAPHIC] [TIFF OMITTED] T2885.569

[GRAPHIC] [TIFF OMITTED] T2885.570

[GRAPHIC] [TIFF OMITTED] T2885.571

[GRAPHIC] [TIFF OMITTED] T2885.572

[GRAPHIC] [TIFF OMITTED] T2885.573

[GRAPHIC] [TIFF OMITTED] T2885.574

[GRAPHIC] [TIFF OMITTED] T2885.575

[GRAPHIC] [TIFF OMITTED] T2885.576

[GRAPHIC] [TIFF OMITTED] T2885.577

[GRAPHIC] [TIFF OMITTED] T2885.578

[GRAPHIC] [TIFF OMITTED] T2885.579

[GRAPHIC] [TIFF OMITTED] T2885.580

[GRAPHIC] [TIFF OMITTED] T2885.581

[GRAPHIC] [TIFF OMITTED] T2885.582

[GRAPHIC] [TIFF OMITTED] T2885.583

[GRAPHIC] [TIFF OMITTED] T2885.584

[GRAPHIC] [TIFF OMITTED] T2885.585

[GRAPHIC] [TIFF OMITTED] T2885.586

[GRAPHIC] [TIFF OMITTED] T2885.587

[GRAPHIC] [TIFF OMITTED] T2885.588

[GRAPHIC] [TIFF OMITTED] T2885.589

[GRAPHIC] [TIFF OMITTED] T2885.590

[GRAPHIC] [TIFF OMITTED] T2885.591

[GRAPHIC] [TIFF OMITTED] T2885.592

[GRAPHIC] [TIFF OMITTED] T2885.593

[GRAPHIC] [TIFF OMITTED] T2885.594

[GRAPHIC] [TIFF OMITTED] T2885.595

[GRAPHIC] [TIFF OMITTED] T2885.596

[GRAPHIC] [TIFF OMITTED] T2885.597

[GRAPHIC] [TIFF OMITTED] T2885.598

[GRAPHIC] [TIFF OMITTED] T2885.599

[GRAPHIC] [TIFF OMITTED] T2885.600

[GRAPHIC] [TIFF OMITTED] T2885.601

[GRAPHIC] [TIFF OMITTED] T2885.602

[GRAPHIC] [TIFF OMITTED] T2885.603

[GRAPHIC] [TIFF OMITTED] T2885.604

[GRAPHIC] [TIFF OMITTED] T2885.605

[GRAPHIC] [TIFF OMITTED] T2885.606

[GRAPHIC] [TIFF OMITTED] T2885.607

[GRAPHIC] [TIFF OMITTED] T2885.608

[GRAPHIC] [TIFF OMITTED] T2885.609

[GRAPHIC] [TIFF OMITTED] T2885.610

[GRAPHIC] [TIFF OMITTED] T2885.611

[GRAPHIC] [TIFF OMITTED] T2885.612

[GRAPHIC] [TIFF OMITTED] T2885.613

[GRAPHIC] [TIFF OMITTED] T2885.614

[GRAPHIC] [TIFF OMITTED] T2885.615

[GRAPHIC] [TIFF OMITTED] T2885.616

[GRAPHIC] [TIFF OMITTED] T2885.617

[GRAPHIC] [TIFF OMITTED] T2885.618

[GRAPHIC] [TIFF OMITTED] T2885.619

[GRAPHIC] [TIFF OMITTED] T2885.620

[GRAPHIC] [TIFF OMITTED] T2885.621

[GRAPHIC] [TIFF OMITTED] T2885.622

[GRAPHIC] [TIFF OMITTED] T2885.623

[GRAPHIC] [TIFF OMITTED] T2885.624

[GRAPHIC] [TIFF OMITTED] T2885.625

[GRAPHIC] [TIFF OMITTED] T2885.626

[GRAPHIC] [TIFF OMITTED] T2885.627

[GRAPHIC] [TIFF OMITTED] T2885.628

[GRAPHIC] [TIFF OMITTED] T2885.629

[GRAPHIC] [TIFF OMITTED] T2885.630

[GRAPHIC] [TIFF OMITTED] T2885.631

[GRAPHIC] [TIFF OMITTED] T2885.632

[GRAPHIC] [TIFF OMITTED] T2885.633

[GRAPHIC] [TIFF OMITTED] T2885.634

[GRAPHIC] [TIFF OMITTED] T2885.635

[GRAPHIC] [TIFF OMITTED] T2885.636

[GRAPHIC] [TIFF OMITTED] T2885.637

[GRAPHIC] [TIFF OMITTED] T2885.638

[GRAPHIC] [TIFF OMITTED] T2885.639

[GRAPHIC] [TIFF OMITTED] T2885.640

[GRAPHIC] [TIFF OMITTED] T2885.641

[GRAPHIC] [TIFF OMITTED] T2885.642

[GRAPHIC] [TIFF OMITTED] T2885.643

[GRAPHIC] [TIFF OMITTED] T2885.644

[GRAPHIC] [TIFF OMITTED] T2885.645

[GRAPHIC] [TIFF OMITTED] T2885.646

[GRAPHIC] [TIFF OMITTED] T2885.647

[GRAPHIC] [TIFF OMITTED] T2885.648

[GRAPHIC] [TIFF OMITTED] T2885.649

[GRAPHIC] [TIFF OMITTED] T2885.650

[GRAPHIC] [TIFF OMITTED] T2885.651

[GRAPHIC] [TIFF OMITTED] T2885.652

[GRAPHIC] [TIFF OMITTED] T2885.653

[GRAPHIC] [TIFF OMITTED] T2885.654

[GRAPHIC] [TIFF OMITTED] T2885.655

[GRAPHIC] [TIFF OMITTED] T2885.656

[GRAPHIC] [TIFF OMITTED] T2885.657

[GRAPHIC] [TIFF OMITTED] T2885.658

[GRAPHIC] [TIFF OMITTED] T2885.659

[GRAPHIC] [TIFF OMITTED] T2885.660

[GRAPHIC] [TIFF OMITTED] T2885.661

[GRAPHIC] [TIFF OMITTED] T2885.662

[GRAPHIC] [TIFF OMITTED] T2885.663

[GRAPHIC] [TIFF OMITTED] T2885.664

[GRAPHIC] [TIFF OMITTED] T2885.665

[GRAPHIC] [TIFF OMITTED] T2885.666

[GRAPHIC] [TIFF OMITTED] T2885.667

[GRAPHIC] [TIFF OMITTED] T2885.668

[GRAPHIC] [TIFF OMITTED] T2885.669

[GRAPHIC] [TIFF OMITTED] T2885.670

[GRAPHIC] [TIFF OMITTED] T2885.671

[GRAPHIC] [TIFF OMITTED] T2885.672

[GRAPHIC] [TIFF OMITTED] T2885.673

[GRAPHIC] [TIFF OMITTED] T2885.674

[GRAPHIC] [TIFF OMITTED] T2885.675

[GRAPHIC] [TIFF OMITTED] T2885.676

[GRAPHIC] [TIFF OMITTED] T2885.677

[GRAPHIC] [TIFF OMITTED] T2885.678

[GRAPHIC] [TIFF OMITTED] T2885.679

[GRAPHIC] [TIFF OMITTED] T2885.680

[GRAPHIC] [TIFF OMITTED] T2885.681

[GRAPHIC] [TIFF OMITTED] T2885.682

[GRAPHIC] [TIFF OMITTED] T2885.683

[GRAPHIC] [TIFF OMITTED] T2885.684

[GRAPHIC] [TIFF OMITTED] T2885.685

[GRAPHIC] [TIFF OMITTED] T2885.686

[GRAPHIC] [TIFF OMITTED] T2885.687

[GRAPHIC] [TIFF OMITTED] T2885.688

[GRAPHIC] [TIFF OMITTED] T2885.689

[GRAPHIC] [TIFF OMITTED] T2885.690

[GRAPHIC] [TIFF OMITTED] T2885.691

[GRAPHIC] [TIFF OMITTED] T2885.692

[GRAPHIC] [TIFF OMITTED] T2885.693

[GRAPHIC] [TIFF OMITTED] T2885.694

[GRAPHIC] [TIFF OMITTED] T2885.695

[GRAPHIC] [TIFF OMITTED] T2885.696

[GRAPHIC] [TIFF OMITTED] T2885.697

[GRAPHIC] [TIFF OMITTED] T2885.698

[GRAPHIC] [TIFF OMITTED] T2885.699

[GRAPHIC] [TIFF OMITTED] T2885.700

[GRAPHIC] [TIFF OMITTED] T2885.701

[GRAPHIC] [TIFF OMITTED] T2885.702

[GRAPHIC] [TIFF OMITTED] T2885.703

[GRAPHIC] [TIFF OMITTED] T2885.704

[GRAPHIC] [TIFF OMITTED] T2885.705

[GRAPHIC] [TIFF OMITTED] T2885.706

[GRAPHIC] [TIFF OMITTED] T2885.707

[GRAPHIC] [TIFF OMITTED] T2885.708

[GRAPHIC] [TIFF OMITTED] T2885.709

[GRAPHIC] [TIFF OMITTED] T2885.710

                               <all>

</pre></body></html>
